<html>
<title> - FEMA'S RESPONSE TO THE SEPTEMBER 11TH ATTACKS</title>
<body><pre>[Senate Hearing 107-568]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-568

                        FEMA'S RESPONSE TO THE 
                         SEPTEMBER 11TH ATTACKS

=======================================================================

                                HEARING

                               BEFORE THE


                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                                   ON

   EFFECTIVENESS OF THE RESPONSE BY THE FEDERAL EMERGENCY MANAGEMENT 
 AGENCY TO THE TERRORIST ATTACKS ON THE WORLD TRADE CENTER IN NEW YORK 
                         CITY AND THE PENTAGON

                               __________

                            OCTOBER 16, 2001

                               __________

  Printed for the use of the Committee on Environment and Public Works


80-653              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS

                  JAMES M. JEFFORDS, Vermont, Chairman

MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                            OCTOBER 16, 2001
                           OPENING STATEMENTS

                                                                   Page

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    43
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    19
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    12
Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..    17
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     2
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     4
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    21

                               WITNESSES

Allbaugh, Hon. Joseph, Director, Federal Emergency Management 
  Agency.........................................................     7
    Prepared statement...........................................    44
Hessinger, Robert, Logistics section manager, Ohio Task Force 
  One; accompanied by Squad Officer Michael Kenney...............    28
    Prepared statement...........................................    55
Metzinger, Jeffrey L., fire captain, Sacramento, CA Metropolitan 
  Fire District; member, FEMA Urban Search and Rescue Team.......    25
    Prepared statement...........................................    50
Plaugher, Edward P., chief, Arlington County, VA Fire Department.    23
    Prepared statement...........................................    48

 
                        FEMA'S RESPONSE TO THE 
                         SEPTEMBER 11TH ATTACKS

                              ----------                              


                       TUESDAY, OCTOBER 16, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. James M. Jeffords, 
(chairman of the committee) presiding.
    Present: Senators Jeffords, Clinton, Smith, Corzine, 
Voinovich, Carper, and Warner.

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. Good morning. I would like to welcome 
everyone in attendance here today. I would especially like to 
welcome Director Allbaugh and the other witnesses that we will 
be hearing from.
    We are here this morning to discuss the emergency response 
to the horrible events of September 11, to learn from these 
experiences and to offer the help of the Committee on 
Environment and Public Works in preparing future relief 
efforts.
    I visited both the Pentagon and World Trade Center shortly 
after the tragic events of September 11, another day that will 
sadly live in infamy. The devastation I witnessed was 
incredible and difficult to put into words. Thousands of people 
lost their lives due to the cruel and cunning acts of an evil 
perpetrated by a few. The victims of these attacks were men, 
women and children, people with well laid-out plans for 
pleasant and prosperous futures.
    At these two disaster sites, I also saw the incredible 
courage and the dedication of firefighters, urban search and 
rescuers and other emergency personnel responding to the 
disaster. People from Vermont, Ohio, Virginia and California 
and many points in between came to the rescue. I witnessed the 
tireless efforts of men and women of FEMA working hard to 
coordinate the relief effort.
    Although I left both the Pentagon and the World Trade 
Center with a heavy heart, I also left with a profound sense of 
gratitude for the gallant efforts of countless rescuers and 
volunteers who tirelessly and mostly anonymously worked in 
places reserved only for the Ground Zero heroes.
    In the month following the attack, I have spoken to many 
people, Vermonters and others, about the attack. They have all 
expressed profound sadness of our Nation's great loss. But they 
have also imbued me with a feeling that freedom will prevail, 
that good will triumph over evil, and that these horrible 
attacks cannot break our resolve to stand together as free 
Americans.
    Abraham Lincoln once said, ``Freedom is the last, best hope 
on Earth.'' Terrorists may have destroyed these buildings, but 
they cannot destroy the hope that freedom provides. Today we 
assemble to commend the efforts of the Federal Emergency 
Management Agency in responding to this disaster. We assemble 
to commend the work of emergency responders who gave so much of 
themselves in serving others. We assemble to hear what remains 
to be done in the aftermath of these sad events.
    To this end, the committee is also considering several 
legislative proposals to help FEMA better respond to this 
disaster and any future incidents. Additionally, in the last 
few weeks, this committee has received security-related 
briefing from all the Federal agencies we oversee, including 
the Army Corps of Engineers, the Environmental Protection 
Agency, the Nuclear Regulatory Commission, the Department of 
Transportation and the General Services Administration and 
others. The most important message I have taken from these 
meetings is that the Federal Government is working around the 
clock to protect our Nation.
    These briefings have also resulted in the request for 
additional authority from Congress. I want to put my colleagues 
on notice that in the coming weeks, the Environment and Public 
Works Committee will be putting together a legislative package 
to deal with the security needs of the Nation. This package 
will include proposals put forth by the agencies we oversee, of 
this committee, and the recommendations given to me by the 
members of the committee.
    Finally, I'd like to address Mr. Allbaugh and the many of 
those who responded directly to the Pentagon and World Trade 
Center attacks. I cannot possibly understand how difficult it 
must have been to have personally toiled in this devastation 
and trauma. As a Nation, we need to heal. Our thoughts go first 
to the victims and the families and those attacks.
    But we must not forget that first responders are human. 
Firefighters, search and rescue personnel and other members of 
the emergency response community faced extreme stress from 
these traumatic events. Coping with the intense feelings and 
shock will take time. I hope all the emergency response 
personnel will take this time and look for support when needed 
and look to us.
    I want you to know how proud all of us are for the work 
that you have done. I look forward to the hearing and the 
testimony of the witnesses.
    I now turn to my good friend, Senator Smith.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you very much, Mr. Chairman. Thank you 
for holding the hearing. Thank you, Mr. Allbaugh, and all the 
witnesses, for being here today. Sitting here this morning, I'm 
reminded of the Thomas Paine quote: ``These are the times that 
try men's souls.'' The sunshine patriots will shrink from the 
service of their country, but I see no sunshine patriots here.
    Even as we speak, part of the Senate office building next 
door is closed down as they check air vents and other office 
spaces for anthrax. Staff cannot use their offices. I never 
dreamed that we would ever face anything like this.
    I want to say a very special welcome to all of you for 
being here. Director Allbaugh, I don't know if you recall, but 
before your confirmation you came in to my office and we talked 
about how we need to focus on terrorism and preparedness, and 
disaster response. Little did you know how quickly you were 
going to be baptized in that.
    I welcome you here today and look forward to discussing 
your role in response to September 11. From this Senator's 
perspective, you have done a fantastic job, all of you. We want 
to heap the praise on you that you deserve, but also hear from 
you about what happened.
    I want to thank all of your staff and the volunteers that 
fall under the FEMA umbrella for the tireless work that they've 
done in the past several weeks. I must say, as I just said to 
you privately, I've never been a Yankees fan, but last night, 
seeing Giuliani sit in the stands and watching the Yankees win 
that game and come back from three runs back, it was kind of a 
good feeling. I'm still not a Yankees fan. Seeing Jeter dive 
into the stands to catch a ball to save a ball game was very 
interesting.
    I spoke with so many of you when I was in New York and also 
at the Pentagon a few days after the attack. I talked with the 
firemen, the policemen, the rescue workers and search and 
rescue teams. You're the embodiment of professionalism and 
patriotism and kindness and emotion. I could not help but be 
moved as we were there, I think 6 days after September 11, I 
saw the firemen and the rescue workers coming out of those 
ruins, with the emotion showing on their faces, showing the 
disappointment of not finding anybody alive. It was truly an 
experience that I'll never forget.
    Mr. Chairman, we have here today the chief of the Arlington 
County Fire Department. He played a vital role in responding to 
the attack at the Pentagon. Two members of the search and 
rescue teams that were called upon by FEMA to respond to the 
World Trade Center disaster are other witnesses. The three of 
you do not just represent your individual units; but you 
represent every single man and woman all over America and all 
emergency personnel for the tremendous job you did at both the 
Pentagon and the World Trade Center. You responded from all 
over the Nation.
    Who and what you represent is the best tradition that this 
Nation has to offer. We often think of the military as the best 
of our American spirit, but in both deeds and spirit, you have 
joined those honored ranks. I know I embarrass you when I say 
it, but you're heroes, every one of you. That term is not used 
too often these days, sometimes, maybe it's not used often 
enough.
    I remember as a kid in grade school I thought about being a 
fireman or a policeman. If I had chosen that route, I certainly 
could never be prouder than I am of all of you today. You are 
the embodiment of the American belief, which is that gift which 
makes this Nation so different from all the others. As 
President Bush said so well the other day, ``That spirit will 
never break.'' We're seeing the change in people's attitudes, 
we're not represented by fallen buildings. The ``can do'' 
spirit is America, and you made us proud. Mr. Allbaugh, you did 
as well.
    So we're here this morning not only to listen to how you 
responded to the attacks, but just as important, to publicly 
thank you on behalf of the U.S. Senate, and on behalf of the 
people of this Nation. We wish to extend our deepest sympathies 
for the loss of your brothers and sisters who were on the scene 
first and who gave their lives in an attempt to save others. 
Remarkable heroism.
    I read your testimony, and will speak to you about it, 
Captain Metzinger. I'm talking about your daily chronicle. It 
is such a tremendous story. Your words vividly brought back my 
own memories of what I saw in New York. When I was there--
``surreal''--you used that term--the expanse of this disaster 
is difficult to comprehend. I was touched by the business card 
that you found, wondering whether that man had survived. I hope 
he did, but I don't know if you know or we'll ever know.
    Thank you all for being here. Thanks for the tremendous job 
that you did, are doing, and continue to do in the future.
    Thank you, Mr. Chairman, for holding the hearing.
    Senator Jeffords. Thank you.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Mr. Chairman, first of all, I'd like to 
thank you for holding this hearing today. Also, thank you for 
the time and effort that you have put in as chairman of this 
committee to carry out our responsibilities in terms of FEMA. I 
know that you have really given it everything that you have, 
and I want to thank you publicly for that.
    I'd like to welcome Joe Allbaugh today.
    Mr. Allbaugh. Thank you, sir.
    Senator Voinovich. I've already thanked you in writing, 
Joe, for the outstanding job that you've done in your public 
appearances in comforting and reassuring countless persons in 
this country. You are working to keep things under control and 
respond to the emergency situations that you encounter. I know 
that you'd be the first one to admit that one of the nice 
things that happened to you is that you inherited a pretty good 
team from James Lee Witt. I know one of my concerns when you 
came on board was that fires, tornadoes, disasters don't wait 
for confirmation hearings. They occur. I don't think you ever 
had any idea that you'd be encountering what you have during 
the last month or so.
    I also know that the other agencies of government have been 
cooperative. I was impressed, for example, that some of the 
folks I met up in New York were from the Department of Energy, 
and that the Administration just really pulled together in a 
unique way to respond to our crisis.
    In addition to that, I've been impressed, and I know you've 
been impressed with the outstanding emergency response teams 
that we have in this country. I know as a former mayor and 
governor, I wondered whether or not, if something like this 
happened, whether they had the ability to respond. I think they 
showed us and the country how good they really are.
    I'm really pleased that one of the witnesses we have here 
today is Robert Hessinger, from the Ohio Task Force that 
responded to the attack in New York. One of the things that 
impressed me, Mr. Chairman, when we went to the Pentagon and 
met with Chief Plaugher, he talked about the emergency response 
teams from this region that were there, right on the ball.
    I suspected, Chief, that it would have been the Federal 
Government handling Pentagon protection, and found out it was 
Arlington and Prince George's County and Fairfax that were 
there, on the ball. It was their teams, local government teams, 
that were responding. I found somebody from Nebraska, from an 
emergency response team, he was bragging about the Ohio team 
was up in New York. I had no idea.
    I just want to say that from my perspective, how proud I 
really am of what FEMA did, but also the tremendous 
infrastructure today that we have in this country to deal with 
crises like we've had here in Washington and New York.
    The real question that I've got this morning, and I think 
we want to find out, is just what you had in terms of 
resources, were they adequate, where are you today and how can 
we improve upon the situation? What can we do to help you get 
the job done? I'm so pleased that the chairman, in his remarks, 
said that we want to respond to the Administration's needs.
    One of my real concerns, Mr. Chairman, is that all of us in 
our zeal to be helpful are coming up with all kinds of 
administrative models that we try to superimpose our ideas on 
the Administration. The Administration is up to here in 
rattlesnakes and with the challenges that they have.
    It seems to me that one of the most important things that 
the Congress can do is to wait for the Administration to come 
back to us with their recommendations on how they think they 
can best get the job done and how we can help them to get that 
job done. The last thing I would want, if I were the President 
of the United States, is to have my legislative body tell me 
what structure to follow and how I was going to go about doing 
the job. I'm very interested in hearing your thoughts on that 
today, Joe. I'll be interested to see from the folks on the 
local level if they're satisfied with the organization and 
routines that we have in place, and to ask their ideas about 
how we can help them to do a better job.
    Last, but not least, I want to join the ranking member and 
the chairman of this committee in thanking all of you for your 
service to your country. All of us were so proud of the way you 
responded, and all of us cannot help but grieve along with the 
families of your brothers and sisters who gave their lives for 
their fellow man.
    One of the things that I always did as mayor and governor 
is, I was there to swear in our police and our firemen and our 
State troopers. I did it because I wanted to remind the people 
of the great service and sacrifice of our people in uniform. 
Sometimes, you are taken for granted, and I think that today 
this Nation understands how really important you are. You were 
on the front lines and in my opinion, to give witness to the 
second great commandment, that is, love of fellow man. Thank 
you for your service.
    [The prepared statement of Hon. George V. Voinovich 
follows:]
  Statement of Hon. George V. Voinovich, U.S. Senator from the State 
                                of Ohio
    Good morning, Mr. Chairman.
    I would like to thank you for holding this important hearing on 
FEMA's response to the terrorist attacks on the Pentagon and the World 
Trade Center on September 11.
    I would like to welcome Joe Allbaugh to today's hearing. I've 
already thanked Joe in writing for the outstanding job he's doing. His 
public appearances were and are comforting and reassuring to countless 
persons. Reassurance is something that the American public needs right 
now, and Joe, you are just a calming influence. That's something that 
this Nation is going to need in the months ahead.
    I'm sure that Joe would agree that FEMA's ability to respond to a 
crisis is because he inherited a great team from James Lee Witt. 
Director Witt is a wonderful man, and in my view, one of the finest 
officials in the Clinton Administration. He had a wonderful ability to 
pull together the right elements from all over to respond to crises as 
they arose.
    Joe, you've picked up some very good emergency response teams 
across the country that you are able to call upon in times of 
emergency.
    Today, we have one of those teams represented here by Robert 
Hessinger, of Ohio Task Force One. As my colleagues know, Ohio Task 
Force One responded to the attack in New York City.
    Ohio Task Force One is a designated FEMA emergency response team. 
It is made up of volunteers from fire departments across Ohio and is 
coordinated out of Wright Patterson Air Force Base in Dayton.
    Mr. Hessinger is the Logistics Chief for Ohio Task Force One and in 
his regular job, is a firefighter/paramedic with the Kettering Ohio 
Fire Department. He is accompanied today by Mike Kenney, a Captain with 
the Dayton Ohio Fire Department and also a member of Ohio Task Force 
One.
    Seventy-two members of Ohio Task Force One were mobilized just 
hours after the attack on the World Trade Center on September 11 and 
were among the first out-of-State FEMA teams to respond to ``Ground 
Zero.''
    On the Friday following the attack on our Nation, I visited the 
Pentagon, along with Chairman Jeffords, to observe first-hand FEMA's 
response to this attack.
    I should not have been surprised that it was the local fire 
departments from Arlington, Fairfax and Prince George's County that 
were on the scene first. As a former Mayor and Governor, I know first-
hand that these are the men and women who are our Nation's first line 
of defense in a crisis.
    One of the first people I met on my tour with Chairman Jeffords was 
Chief Ed Plaugher of the Arlington County Fire Department. Chief, I'm 
glad that you are here today.
    I must say that we were impressed with the Arlington Fire 
Department, which was one of the first on the scene to fight the fire 
and help rescue wounded personnel.
    In addition, we witnessed first-hand the work conducted by FEMA 
employees those first few days following the attack. Director Allbaugh 
should be very proud of their dedication.
    The following week, I toured the World Trade Center site with 40 of 
my Senate colleagues. The bravery, professionalism, and sacrifice of 
the men and women of the New York Fire Department, New York Police 
Department and other emergency workers is an inspiration to us all. 
These men and women are true heroes in every sense of the word.
    I am also proud of the men and women of Ohio Task Force One, who 
traveled to New York without hesitation to offer their expertise and 
assistance to the New York rescue workers.
    From my observations, I think the men and women of FEMA have done 
an outstanding job in the immediate response to these attacks and they 
are continuing to provide vital assistance in both New York City and 
Arlington.
    The hearing today is to find out from Mr. Allbaugh and our other 
witnesses as to how they think they did (and are doing), what resources 
that they didn't have that they should have had, and how they think 
they'll be able to respond to crises in the future.
    I remember when Director Allbaugh came to see me prior to his 
confirmation, I asked him about the ``human capital crisis,'' if he had 
the people to get the job done. He said he felt comfortable with the 
people he had, but Joe, the one question that I want to ask you is: 
what more do we need to do to help you do a better job? To the others, 
what I'll want to know is: what do we need to do to enhance our 
readiness to handle traditional emergencies and the unexpected crises?
    I thank Director Allbaugh and our witnesses for taking the time to 
be here today, this is an important topic and an important hearing. I 
also want to again commend the emergency services personnel of New 
York, Pennsylvania, northern Virginia and the District of Columbia and 
all those who came to assist from across the Nation. They are true 
heros and our Nation owes them a debt of gratitude.

    Senator Jeffords. Thank you, Senator.
    I would point out, in case you're wondering where the rest 
of the committee is, we're having a briefing on the events of 
yesterday, let's leave it at that.
    Mr. Allbaugh, Director, please proceed.

            STATEMENT OF JOE M. ALLBAUGH, DIRECTOR, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Allbaugh. Than you, Mr. Chairman, Senator Smith, 
Senator Voinovich. I appreciate the opportunity to be here this 
morning. I am always humbled and honored to come before this 
committee.
    Actually, I'll be brief in my remarks because I know you 
have several questions. I'd just like to begin by telling you 
that these folks sitting on the front row before you are the 
true heroes of everyday American life. They represent heroes, 
many men and women who put their lives on the line, whom we 
often take for granted, as Senator Voinovich said. They're 
always first in line for budget cuts and last in line for 
recognition. I think, as a result of September 11, that maybe 
these brave men and women will be due the admiration that they 
so richly deserve, putting their lives on the line every minute 
of every day all across this country.
    Five weeks ago this morning, our world was transformed. At 
that time, President Bush told me to make sure that the Federal 
Government would provide whatever assistance was needed in New 
York, Pennsylvania and at the Pentagon. That mission is still a 
work in progress, but I can assure you and the American public 
that FEMA's response was swift and comprehensive and our 
commitment of continued support is unwavering.
    Since September 11, I've spent many days at Ground Zero in 
New York City. I visited the site in Pennsylvania, was inside 
the Pentagon the Saturday after the event. Those places are 
where the true heroes are--those who were in their offices at 
work, grabbing a cup of coffee, on an airplane; and those who 
were first to respond to the tragic events--the firefighters, 
the police officers, the emergency medical technicians.
    All are gone now, but I can assure you they're not 
forgotten. Our prayers are still with those folks and their 
families. Working hand-in-hand with Governor Pataki, Mayor 
Giuliani, Fire Commissioner Tommy VonEssen and Police 
Commissioner Bernard Kerik and many others, we've begun the 
painful process of recovery.
    Beginning on September 11, FEMA deployed 26 of our 28 
national urban search and rescue teams. Twenty-one went to New 
York, ultimately, the last one checking out of New York a week 
ago this last Sunday. Five went to northern Virginia at the 
Pentagon site. The New York City Office of Emergency 
Management's Task Force was among the first responders at the 
World Trade Center. Its leader, Chief Ray Downey, a person I 
was lucky to know, a great partner of FEMA, was on the scene. 
Tragically, he and his team never made it out.
    I watched our rescue teams join New York City's finest and 
Virginia's finest, working shoulder to shoulder around the 
clock to find their brothers and sisters and fellow citizens. 
These sites are truly hallowed ground. Now our rescue teams 
have gone home and we are fully engaged in the recovery 
process. We have millions of tons of debris still to be moved 
out of New York City. It will take months. As of this morning, 
we've only moved out 300 million tons. It doesn't sound like 
very much compared to what we have to move.
    Before and since the President signed the disaster 
declarations for Pennsylvania, for New Jersey, for Virginia and 
New York, FEMA activated the Federal response plan. To your 
point, Senator Voinovich, I think what we planned to do in this 
event worked just like it was supposed to, according to the 
Federal response plan.
    We activated our emergency operations center here and in 
our 10 regions. We established disaster field offices in 
Virginia, New York and New Jersey and declared these disasters 
with public assistance at 100 percent for eligible cost. Our 
biggest concern currently is to make sure that the right 
assistance is getting to the right people. Many people need 
counseling; they will need counseling for a long time to come. 
Many qualify for individual assistance. I want to make sure 
that those people are helped.
    In addition, we are there to help States and local 
governments with their public assistance needs, such as their 
public buildings, roads, streets, and emergency protective 
measures, making sure that these men and women are reimbursed 
for their time, material, their equipment in proper fashion.
    In the past month, thousands of Federal employees have been 
working day and night at our disaster field offices at these 
three sites. Today we still have 1,300 FEMA employees deployed 
to New York City. Our job is not finished, but we will see it 
through to the end.
    In the meantime, we're currently looking at all aspects of 
our disaster response in those three States to determine the 
lessons learned to be better prepared for the future. We're 
also working with President Bush and his Administration on any 
new legislative needs. As we continue to move forward with the 
recovery, I will let you know promptly if there is any new need 
for authorities.
    Let me conclude on a personal note, if you don't mind. I 
attended about 10 days ago and spoke at the funeral of Captain 
Terry Haddon in New York City. Two weeks prior to that, on 
August 29, I had the fortune to sit down with his coworkers at 
Rescue One on 43rd Street in New York City to have a lunch with 
those individuals. Chief Ray Downey was there, with 13 or 14 of 
us around the table. We had a great time.
    I try to stop in our country's firehouses every opportunity 
that I'm out on the road. It is amazing what I'm able to learn, 
what their needs are, what their wishes, wants, hopes. They are 
a true family in those firehouses all across the country. In 
that short 1\1/2\-hour, I became, I thought, a small part of 
their family.
    The night before Terry's funeral, I attended a wake in New 
York City. His wife Beth, who subsequently found out that she 
was pregnant with their first child after September 11--Terry 
never knew--handed me a small card. On one side it was a short 
life history of Terry. On the back part of the card was the 
Fireman's Prayer. I'd like to close just with the last sentence 
of that prayer, because I think it says so much about men and 
women who wear the uniform of our country's military. It says 
so much about the firemen and the firewomen and the police 
officers and the emergency responders and all those individuals 
who lost their lives on September 11.
    It goes like this: ``If, according to my fate, I am to lose 
my life, please bless with Your protecting hand my family, 
friends and wife.'' For Terry Haddon, Ray Downey, Joey 
Angelini, Dennis Mohica and thousands of other souls that were 
lost on that fateful day, I hope that those of us still living 
and thriving can help provide that protecting hand to all the 
families and loved ones.
    Mr. Chairman, I thank you for this opportunity and I know 
you have a lot of questions. But I do appreciate the 
opportunity to be here this morning.
    Senator Jeffords. Thank you very much for your very moving 
story. All of us want to join you in doing what we can. One 
thing I would like to try and find out is to learn what we can 
do to help the families have closure on the events, and yet at 
the same time, recognize that their loved ones died for a cause 
of freedom. We should recognize that.
    However, we have some business to get to. As you know, this 
committee sent a letter to the White House shortly after the 
September 11th attacks, pledging our support for FEMA's 
disaster relief efforts. Today I again say that we are willing 
to work with FEMA to assist the disaster relief efforts. To 
date, have you identified any areas where additional 
legislation of authority is needed to aid in these efforts?
    Mr. Allbaugh. Mr. Chairman, I don't think there are any 
immediate needs of additional authority for FEMA. Our principal 
response is to facilitate and coordinate those needs that local 
entities and State entities need when a disaster arises. I 
would like to say that at all three sites, I'm proud of the way 
FEMA responded to these disasters, approaching it with the 
right attitude. In that, as the Chief can tell you, in 
Virginia, he was in charge of that site. In New York City, 
Commissioner Tommy VonEssen and Police Commissioner Kerik were 
and still are in charge of those sites. We brought all the 
Federal assets that we possibly could to assist them.
    In New York City alone, we had something like 18 Federal 
agencies at our disaster field office. At no time have I ever 
experienced an unwillingness on the part of any individual that 
represented any Federal agency to not be of assistance. I think 
you will hear this morning from these gentleman ways in which 
we can possibly improve parts of our urban search and rescue 
efforts.
    I'm not necessarily sure that we need more teams, quite 
frankly, but we need to expand their capabilities. Debris 
removal is an awesome effort in New York City. It will probably 
cost us, and these are guesstimates, between $7 billion and $10 
billion just to clean up the site.
    We have the capability, we have the authorities right now 
in place for us to do our job. Our disaster field office is 
open around the clock. We were given use of Pier 94, in 
cooperation with the City of New York, which was set aside for 
family members. We have a family assistance center downtown at 
141 Wharf Street, the intersection of Wharf and Center. We have 
a disaster field office in northern Virginia, trying to make 
sure that all those individuals and their families who have 
been affected by this incident are taken care of.
    I mentioned in my remarks about the need for counseling. I 
am deeply concerned about our capability to provide proper 
counseling, not only for the victims, but for the men and women 
who are working these incidents. They need a lot of attention. 
This isn't something that's just going to happen overnight; it 
will take years to get over this.
    I know, being from Oklahoma, I know individuals personally 
who have yet to be over the incident of April 19, 1995, the 
Oklahoma City bombing. This is probably the biggest task ahead 
of us--making sure that we have proper professionals trained to 
assist families and rescue workers along the way to recovery.
    Senator Jeffords. What do they have available to them now?
    Mr. Allbaugh. We contract with the city and State to bring 
in the necessary professionals as they see fit. Rowe O'Keefe 
runs Pier 94. She is a city employee, works directly for Mayor 
Guiliani; she has done a phenomenal job. I am so proud to even 
know her, handling the needs of thousands of individuals who 
come in and are wanting to bring closure to this part of their 
life. We have individuals from the State health organizations 
in New York, State health organizations in Virginia and 
Pennsylvania onsite, at our DFOs, assisting those family 
members as they continue this grieving process.
    Unfortunately, as human beings, we need a body to bring 
closure to this. I'm afraid in many instances, there will be 
many families who will go on forever with many more questions 
than we have answers to. Those are the ones that I'm most 
concerned about.
    The crisis counseling, the supply of individuals from the 
Red Cross, the Salvation Army, the professionals, are a ready 
reservoir and we're calling upon them. We just need to make 
sure that we have the money to pay them for their time to 
assist these families as they try to bring closure to this 
event.
    Senator Jeffords. This has clearly been a most painful and 
unfortunate chapter in the country's history. Thousands, as you 
say, lost their lives in a disaster unlike any other that we've 
seen in the past. Given the enormity of the relief effort, what 
are the greatest lessons that FEMA has learned from this?
    Mr. Allbaugh. I would say probably our greatest lesson is 
to lean as far forward out of the foxhole as we possibly can. 
We can never underestimate what our needs may be in the future. 
We oftentimes find ourselves on the receiving end of phone 
calls and responding appropriately.
    I think there is a need for--not only us at FEMA, but the 
entire Federal Government, to re-think how we approach everyday 
life and the way we do our business. Oftentimes in these 
disasters, particularly on September 11, we second-guess 
ourselves whether we moved quickly enough. I know I immediately 
activated urban search and rescue teams, and we moved three or 
four in that afternoon of September 11 into New York City.
    I'm not sure how we could have moved any quicker, quite 
frankly. At that time, as you will remember, we were grounding 
all the airplanes across the country and transportation became 
an issue. But that's the only issue we had, was the 
availability of those aircraft to get back up into the air. We 
had plenty of aircraft to move our teams into position at the 
Pentagon and New York. But it was a logistical problem that 
took a few hours to work out, and we did work it out.
    Senator Jeffords. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman. I'll start by 
saying, Senator Inhofe had a funeral to attend in Oklahoma and 
he asked me to personally extend his regards to you and all of 
the rescue folks who are here.
    There is oftentimes in government operations--from Senators 
or President on down through the various bureaucracies--a lot 
of criticism about how government doesn't work. We are all 
human beings, and we all work together. It makes me proud to be 
an American.
    I want to thank you again. I can't say it enough. I don't 
have any hard questions to throw at you, Joe. I would just make 
a couple of comments. I think that as the Office of National 
Preparedness is put together, and as Governor Ridge begins 
working with the President to construct that office, that is 
going to have some impact on FEMA. I'm not going to ask you 
about how that would work now, because obviously, we don't know 
yet.
    I ask you to stay in touch with us on the committee, so if 
there are any legislative initiatives that need to be taken, to 
help make that office function in conjunction with FEMA, we'd 
like to know that so we can get out ahead on it. We don't know 
how long this crisis is going to last here in this country. 
Also, if it takes administrative changes, then let us know what 
they are and we'll be supportive.
    There was such professionalism in the District of Columbia 
area and the New York area. Do you have any idea, and we might 
ask the same question of the other panel when they come up, if 
it had not been as large a metropolitan area, would the results 
have been any different? Not necessarily in terms of the 
patriotism and the involvement, obviously, but just in terms of 
how smoothly it would have worked with FEMA and the local 
officials? Would there have been any difference, do you think?
    Mr. Allbaugh. The chief can probably speak better to this 
than I could. But from my perspective as the director, I cannot 
imagine any better working relationship than what we had at the 
Pentagon or in New York City and in Somerset County, PA. I do 
believe, though, that had this happened in most cities in the 
United States, the need, the demand, the requirement to respond 
probably would have overwhelmed local capabilities.
    So in that respect, I think that we had this event here at 
the Pentagon, New York City, they were prepared. Fortunately, 
the chief had Montgomery County and Fairfax County in his hip 
pocket to rely upon. He has a great working relationship with 
those individuals, knew exactly their pluses and minuses, and 
knew what he could call upon from those groups to perform at 
the Pentagon.
    New York City was just a little bit different. You have 
16,000 firefighters, 40,000 police officers in the city of New 
York. If you will remember, the fire department lost its 
leadership. There was a tremendous void. Without that command-
and-control leadership structure, things do become chaotic. It 
becomes problematic for the incident commander to respond 
appropriately, knowing exactly where all his members are at any 
one given moment or where he needs to attack the fire, or where 
the individuals are.
    Without that leadership, I think it became more difficult 
for New York City to respond. Obviously there were a lot of 
brothers and sisters lost in the rubble, and they were 
emotionally involved, to try as hard as they possibly could to 
recover those individuals. We were able, utilizing the U.S. 
Fire Administration, to bring in some individuals to help the 
city of New York in their restructuring of their leadership.
    But I would say that was the only glitch that we had. It's 
really not a glitch, it was really just a by-product of the 
event, quite frankly. I do worry about capabilities of local 
and State responders. I want to make sure that we properly 
train. We have great resources at Emmittsburg, at the Fire 
Academy, courses that are taught, not only there, but 
nationwide, to responders.
    We can always do a better job, but in this particular 
instance, I think everyone did exactly what they were supposed 
to do. The Federal response plan was put in motion. Everyone 
worked shoulder to shoulder, pulling not only their weight, but 
oftentimes someone else's weight. We made it work. There will 
always be minor glitches along the way, but we handle them as 
they come up. We have the ability as a country to, quite 
frankly, collectively whip any problem that confronts us.
    As to your remark earlier regarding Governor Ridge, he and 
I have already met, Senator, several times on this issue. We 
have pledged our cooperation. I can't think of a better person 
for that job. The President and I have spoken often about this. 
I will continue to develop the Office of National Preparedness 
at FEMA to lend as much assistance to Governor Ridge as we 
possibly can.
    But I see no problem in our working relationship 
whatsoever. Fact is, I'm really looking forward to working with 
him and his staff.
    Senator Smith. Thank you very much. Thanks again for the 
great job you did.
    Senator Jeffords. Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Mr. Chairman.
    Hello, Mr. Director. Thank you so much for the 
extraordinary work that you and your team are doing. We are 
very grateful for your leadership and your personal concern, 
which I have witnessed first-hand and am very grateful for.
    There are many issues that we're really breaking new ground 
on here. All of the experience that FEMA has had, and you and I 
have talked about this, our own personal experiences with 
natural disasters. Oklahoma City I think put us in a good 
position to respond. But I think there's a lot more for us to 
learn and to disseminate those lessons, so that we all can be 
better prepared.
    The questions that I have, and some of these are ones that 
are really based on our particular experience in New York, both 
in the aftermath of September 11 and in the difficulties that 
we are facing with the bioterrorism issue, is how we improve 
public education and provide a good basis of information, to 
separate the fears from the facts so that people can get what 
reassurance they need and take what precautions they should.
    For example, I believe that we should have a kind of public 
education town hall meeting. I've spoken to Secretary Thompson 
and encouraged the television networks to cooperate, to have 
maybe a 2-hour time that the entire country can watch with you 
and Secretary Thompson and other Government leaders, as well as 
experts, so that everybody can get the same information at the 
same time. I'm very worried that there's a lot of information 
being disseminated that is either inaccurate or unnecessarily 
panicking to people.
    Second, I know that we've got to do a better job taking the 
special health needs of our children into account. The incident 
in New York with the 7-month-old baby I think raises a lot of 
questions for us. Children are more vulnerable than adults. 
They don't need as much exposure to certain elements in order 
to have a reaction. We don't know enough about what we should 
be doing to protect our children.
    Last week, I introduced legislation with Senator Dodd that 
would try to begin addressing that, and to work with FEMA so 
that, once again, FEMA can help us all be ready to deal with 
the challenges facing our children.
    I'm also continuing to be concerned about a lot of the 
health needs. There was an article in The Washington Post today 
about the health needs of our workers who are on the clean-up 
crews. I hope that we will fund a study to follow those 
workers, so that we can acquire good information, treat them 
where necessary. We're working to try to get that into, I 
think, the Labor-HHS appropriations.
    I think it's an appropriate issue for our committee to 
address, also, Mr. Chairman, because we don't know all of the 
long term hazards and the effects that those who have been 
digging in the rubble for 24 hours a day, literally, around the 
clock, might face. We need to learn that, so that we can better 
protect our men in uniform, and the women who are on the front 
lines, so that if there are precautions they should take, we'll 
be ready for that.
    A few quick questions that really deal with the issues in 
New York. I know that people have said, and I am proud that 
they do, that no city would have been better prepared to deal 
with this terrible disaster than New York, because of the 
response that they had in place and ready to go. Are there 
lessons, Director Allbaugh, that we can learn from what New 
York did, and are there additional steps that FEMA can take to 
disseminate that broadly, so that everybody in the country is 
as well prepared as possible?
    Mr. Allbaugh. I'd make two particular observations 
regarding your question. One, if there's a single item that we 
could do, it is to make sure that police, fire, emergency 
responders can communicate with one another. Oftentimes I go 
into a community and there are all types of bands and 
frequencies used, and folks literally who are responding to an 
incident can't talk to one another. So that is one single item 
I can put my finger on that we need to address immediately.
    Second, what I've initiated, and I had a conversation with 
Governor Ridge 2 days ago and then again this morning about 
this, is that we are going to institute a study that we've done 
in previous years, a capability assessment for readiness of all 
States to make sure that we know exactly what each State's 
capabilities are, as well as local entities, and where they 
need assistance. Well, let me back up. Once we complete that, 
we will design a template, so everyone knows exactly what the 
bar is, what is going to be the measurement, where do they need 
to be. Because I just don't want to be in a position of 
throwing a lot of money out there on the table and the American 
public deserves to actually get something in exchange for their 
tax dollars.
    We are looking at right now at improving that study. I'm 
going to try and get it conducted here in the next month, of 
all 50 States and the territories, so we can move 
expeditiously. I think that's a time when we would be in a 
position to come back to the committee and make some hard 
recommendations.
    But I'll be honest with you, I'm not exactly sure that we 
have a good handle on what our States' capabilities are. I 
think it's important that we know and we offer assistance where 
we can. As I mentioned a minute ago, we spend a great amount of 
money--properly so--training first responders and emergency 
managers at Emmittsburg, a fabulous facility. One of the things 
I need to look at is how do we expand that so we can meet the 
demand. Our demand far outstrips our capability at Emmittsburg.
    Coupled with this, I just don't want to be the 300-pound 
gorilla, forcing something upon States that they may or may not 
need. We have to have an honest, active dialog with those 
individuals. And we do. I can't think of a better agency that 
has more dialog with State individuals other than FEMA. I'm 
very proud of our relationship. It is a proper relationship, 
but we can improve upon what resources we can afford the 
States, so they can be better prepared.
    As you know, I'm not the one receiving the 911 phone call, 
these folks are the ones who are receiving the 911 phone call, 
and we need to make sure that they're best prepared with 
trucks, personal equipment, safety devices, to do the best job 
that they possibly can. I appreciate your question.
    Senator Clinton. Well, I appreciate your answer. I 
appreciate the gentlemen sitting in the front row and all the 
other first responders who are on the other end of those calls. 
We do need your guidance and advice as soon as it's humanly 
possible to provide it to us, because I think every one of us 
on this committee wants to provide whatever additional 
resources and support, perhaps looking at maybe some regional 
training facilities like Emmittsburg, so that you can deal with 
the need that is out there and people will be able to come 
forth is something we should consider. Maybe in conjunction 
with some of our military bases or even some of our no longer 
active bases. I think there are some real opportunities here if 
we get the kind of planning and recommendations that I know 
that you'll come forward with.
    Another issue that is of particular concern in Lower 
Manhattan is the small business community. I think we have 
discovered there's a potential area that needs some additional 
help. We have a terrible dilemma confronting our small 
businesses in the immediate vicinity of Ground Zero. Certainly 
within the area itself there's obviously no basis or ability to 
go back into business. That's a problem for down the road.
    But within blocks of it, we have people who are literally 
going out of business because of the fact that this is not only 
a disaster scene, it's also a crime scene. So we have many 
streets blocked off and the police are doing their collection. 
Somebody said to me, one of our colleague Senators said, 
``Nobody's going to be tried for this.'' Well, that's true, but 
there is information and things that are being found blocks 
from the site. So we're trying to be very careful about that.
    But the net result is that all these small businesses are 
basically cut off from their customers. They're not really 
receiving any help. Many of them are not in a position right 
now to sign for small business loans, because until we get the 
traffic flowing again and the barriers down, there is no way 
they can know whether they'll be in business. They desperately 
want to be in business. I talked to a bar owner a week ago, and 
he said, ``I'm stocked, I'm ready to go, but nobody knows I'm 
here, and they can't get to me even if they want to come.''
    So one of my hopes is that we could look at a single office 
within FEMA to address property, business and financial losses, 
that we could look at having the Small Business Administration 
raise the cap on its loan amounts, change its eligibility 
criteria, defer loan payments for 2 years or more, and maybe 
even look at some grants that were reasonably likely to keep a 
business open to get it on its feet. I would love to work with 
you as well on that, Director, to see what we can do more on 
the small business front, because it's desperately needed.
    Mr. Allbaugh. I appreciate that. I'm concerned about 
individuals, as you say, who don't even know we know they 
exist. They need to really call that 800 number, and let me 
give it out publicly, please, 800-462-9029. I think the next 
disaster I'm going to get an easier number that everyone can 
remember.
    But we do try our best to track these individuals in making 
sure they're put together with the right Federal agencies so 
they get the assistance that they probably need. I do think 
it's going to take a little bit of an extra effort in Lower 
Manhattan. We have the office at Wharf and Center Street. It is 
small, so I've asked folks to find another location so we can 
focus solely on the small businesses that are affected. But it 
is a problem that we are going to deal with.
    Senator Clinton. I know my time is up, but I would like to 
also raise the possibility of a more vigorous public education 
campaign. I think a lot of people have been in such a state of 
shock until recently that they really haven't paid attention to 
our PSAs, our 800 numbers, our invitations to seek help. 
They're beginning to, so I think we have to almost start from--
--
    Mr. Allbaugh. Scratch.
    Senator Clinton. Yes, start from scratch and get out there 
and really get the information out so that people know where to 
go to get the help that is waiting for them.
    Mr. Allbaugh. I agree. Thank you.
    Senator Clinton. Thank you.
    Senator Jeffords. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    After the attack in New York and here in Washington, we 
said one of the things we needed to do was understand the 
grieving that was going on by the families that suffered loss. 
One of the ways that we could help deal with that was to try 
and alleviate any concern that they would have for material 
needs. It's bad enough to be grieving and then start to wonder 
about how they are going to take care of their families and so 
forth.
    I was impressed when I talked with Tommy VonEssen in New 
York. I asked him what about his firefighters, what about the 
police officers? He assured me, and I was pleased that our 
terrorism bill--maybe a lot of people are aware of this, but we 
have, under the old law, $151,000 payment to families of lost 
firemen and police officers. We increased that to $250,000 in 
the terrorism bill, making it retroactive.
    But he basically said to me that he felt that with the 
pension plans, with the Federal payments and so forth, that 
materially those families would be all right. I am glad that 
you are also taking into consideration the issue of the 
psychological problems that those families would have. I know 
in my own case, when we lost our daughter, my children are 
still suffering. We should have sent them to counseling at that 
time. I think that's something that I'm glad you're aware of, 
and something you're going to need to concentrate on.
    The other thing is that I'm really concerned about the 
expertise that the city of New York lost. One of the things 
that Tommy VonEssen talked about was they lost their whole 
hazmat operation. I was wondering, have we responded at all to 
his request that we get people in there that can train up his 
folks so that they can deal with other events?
    Mr. Allbaugh. We have indeed, sir. As of yesterday, I was 
speaking with Chief Ken Burris, who runs the Fire 
Administration, and we have designed a program to educate and 
train the new leaders as quickly as we possibly can. I think 
I've spoken directly with Tommy about that, and I think 
Commissioner VonEssen is happy with our progress there.
    We've also imported several hazmat teams from surrounding 
communities to fill that void until those new teams get 
trained.
    Senator Voinovich. I'm glad you're following up with 
medical examinations of the people that are working there to 
make sure that there's nothing they've picked up while they 
were involved there.
    Another question I've got is, did FEMA have the necessary 
authority and resources, do you think, prior to the attack to 
respond?
    Mr. Allbaugh. I believe we did and we do. I can't think of 
any need or want that went unmet. If there was a problem, 
ultimately I'd get on the phone and make it happen. I just am 
happy with the way that every agency responded to our need, our 
desire, our responsibility to coordinate all the Federal 
assets. Our disaster field office at Pier 90 in New York is an 
impressive location. Somewhere between 18 and 22 Federal 
agencies are represented full time. We're demobilizing some of 
those tasks, as the missions are completed.
    But I cannot think of anything, Senator and members, that 
we need at this time that we don't have. I think the Stafford 
Act, the individuals that helped write that, and with the 
amendments just passed last year, have given us enormous powers 
to succeed at the charge that you've given us. I will be one of 
the first to come and scream and holler where we need help if 
we find in this process we need something else.
    But I think we have what we need right now.
    Senator Voinovich. Including being able to respond to 
another major natural disaster we might have next week?
    Mr. Allbaugh. Absolutely. We have the ability to do that. 
The only question there becomes one of resources.
    Senator Voinovich. The mechanics are in place, the 
infrastructure?
    Mr. Allbaugh. The mechanics are in place, don't sell us 
short on the money side, that's my only pitch.
    [Laughter.]
    Senator Voinovich. The other thing that I'm impressed with, 
I recall when I became Governor of Ohio one of the first things 
we did was to do an inventory of the preparedness of our 
counties. In spite of all of our effort, I remember one flood 
where it was like day and night between the ones that were 
prepared and the one that wasn't prepared. I think the idea of 
working with the States is a good idea.
    In fact, I suggested to Secretary Thompson, and maybe some 
of the other folks that are involved in preparedness, that 
perhaps the President could call a couple day meeting with the 
governors of the States so all of you could come in and start 
talking about problems that you see could be out there, and try 
and task them to do some of the things that they ought to be 
doing on the State level to respond to some of the things that 
they're going to have to deal with in the future.
    Mr. Allbaugh. I think this capability assessment for 
readiness is the first step before we have a meeting such as 
that. But I think that's a pretty good idea, quite frankly.
    Senator Jeffords. Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman.
    It is terrific you're holding this hearing, and I must say, 
for all the people of New Jersey, and we feel like we're a part 
of the community of New York in New Jersey, we compliment you 
and the people you work with for all your efforts at a human 
level and with regard to detail. I can't tell you how impressed 
people are.
    I also want to make sure that my total statement is put in 
the record, but that applies to all of the folks who are heroes 
of rescue that will be on the second panel and who they 
represent.
    I must say, the idea of don't sell us short on the money 
side, so that you can get the job done, I hope that my 
colleagues not only here on the committee, but across the 
Senate understand the great need. It's actually each leaf that 
I see fall tells me it's larger than what we had ever 
anticipated and much more far-reaching. I am truly impressed by 
the selfless response of a number of my communities in New 
Jersey, really the community at large, and I know that's the 
case across the region. I hope that we take into consideration 
all those details about straight time and overtime and all the 
kinds of things that get involved in making sure that the 
communities are reimbursed so they can go on about the business 
that they need to do to protect the public in the future.
    I want to reiterate something that I think Senator Clinton 
was talking about, taking a little different approach. I think 
that the shock of this has left many of the victims--not only 
those who have lost life, but have also been impacted in other 
ways--has left people standing back from receiving the 
information that we're working so hard to get out. We're going 
on a campaign to try and contact each individual that has been 
impacted personally by this.
    I'm finding out that there's just a void of information. I 
think people turn off the receipt of this. I think we as a 
community need to be reaching out. A lot of that, I think, can 
be organized through FEMA resources, and I certainly encourage 
you along that line. I don't mean that as a criticism, it's 
just one of those things that people who are either embarrassed 
or in shock and emotional distress, don't reach out in all the 
ways we'd like to see.
    Finally, I'd love to hear your comments on a hearing that 
we had last week in Health, Education and Labor Committee with 
regard to disaster planning as it relates to bioterrorism and 
how much you have had time to work on that. As we sit here, 
there is an evacuation of one of the Department of 
Environmental Protection buildings in Trenton, NJ which is 
going on. It feels like we're doing this by Braille as opposed 
to actually having plans in place and fully formulate them.
    So I'd like to hear your comments on that as well.
    Mr. Allbaugh. In regard to your first question, the one 
point I failed to make a while ago when Senator Clinton was 
bringing up this issue of education is that we have currently 
about 22 community assistance teams that are going door to 
door. We bumped that up over the last couple of weeks from, I 
think we started with 11 or 12, decided that that wasn't really 
enough to cover Lower Manhattan. These teams are made up of 
Federal, State and local individuals who represent a variety of 
agencies. It's not enough.
    I take your admonition regarding education very seriously 
and we'll redouble our efforts. But I wanted you to know that 
those teams are out in the community, literally going door to 
door, business to business as we speak.
    Senator Corzine. That personal contact, I can't think of 
anything more important than actually getting to a widower or 
widow and explaining how we get these processes in play for the 
family and the circumstances that they're dealing with.
    Mr. Allbaugh. I agree. With regard to bioterrorism, I think 
that--as I alluded to earlier, before you both arrived--we have 
to rethink the way the entire Federal Government approaches 
this issue. Oftentimes we find ourselves doing things by rote 
and we have all had a wake-up call.
    I know I have challenged our own staff to think outside the 
box as often and as diligently as they possibly can. One of the 
things we have not done a very good job at is catastrophic 
planning, catastrophic disaster planning. We have to become 
better at that, which requires every agency sitting at a table, 
wading through the minutiae that would be in front of us. It's 
going to take time.
    I think a part of this education effort, if there is a time 
in our country's history where the American public needs 
straightforward facts, now is it. This isn't a time, in my 
opinion, for anybody to be ``big dogging'' it, as we'd say down 
home. Folks just need straightforward facts. I am concerned 
that we don't have a joint information center that the Federal 
Government operates on a regular basis where members of the 
Senate, members of the House, members of the news media, have 
one reservoir, one resource they can go to to get the 
definitive facts that the American public deserves so richly.
    I never want to be in a position of misleading anyone. A 
great compliment to the American public is how they're handling 
this right now. They're taking all this information in, as much 
is being thrown at them, and figuring it out. What we ought to 
be charged with is how we shrink that amount of brain power 
that's utilized in the average individual trying to figure it 
out, we ought to try and figure it out for them and educate 
them. I think if there's one thing we need to do immediately, 
it is to form up a joint information center that would have all 
Federal agencies in one place, total resource for the battles 
that are ongoing and the days ahead of us.
    I'm afraid that there is not a definitive answer yet, 
Senator, on how we combat bioterrorism. You can get as many 
answers as professionals that you talk to. That's just calling 
them as I see them. I get a different answer every time I talk 
to someone different. It drives me nuts.
    Senator Corzine. I appreciate your candor, because that's 
the way it feels, as you are one who is trying to reach out and 
be a constructive element in bringing together responses that 
give the public confidence.
    Senator Jeffords. Thank you. That's an excellent question.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Welcome back. Good to see you again. Thanks 
for your service and the terrific work that your team continues 
to do.
    Mr. Allbaugh. Thank you, sir.
    Senator Carper. I apologize for being late. I was with some 
of my colleagues at the briefing over at the Capitol.
    I want to follow up on a question with respect to 
bioterrorism. Senator Frist of Tennessee apparently has good 
information on bioterrorism on his web page, especially with 
anthrax, that he's made available to others of us in the 
Senate, so we can link our own web pages with his, and anyone 
who contacts our office can find out, just the facts, ma'am, 
just the facts.
    A lot of people may be watching this hearing today across 
the country, and if there are any facts that you'd like for 
them to know, to share with the American people on anthrax or 
bioterrorism, could you just take a minute or two and share 
what you think would be helpful for our constituents across the 
country to know?
    Mr. Allbaugh. Well, two particular things. I think it's 
incumbent upon FEMA to produce a document, a booklet, as we did 
years ago during the old civil defense days, or a booklet that 
we even produced as recently as the concern regarding Y2K that 
would present basically just the facts and how to respond based 
upon what individuals are dealing with. So I've instructed our 
folks to pull together that type of document so we can get it 
published, put it on our website, which is www.fema.gov, and 
get it into the libraries, maybe do some type of a mailout. I 
see where the U.S. Postal Service is doing something similar 
today as we speak, trying to alert everyone.
    But what we need, more than anything else as the American 
public, are straightforward facts. I do think that this joint 
information center will go a great distance to calm everyone's 
fears, because they will know exactly what they're dealing with 
and won't suffer from a multitude of confusing messages from a 
variety of sources.
    Senator Carper. My own view, Mr. Chairman, as we learn 
more, our office is right next door to Senator Daschle's 
office. So there's been a fair amount of angst with the 
developments in the last 24 hours. But if this had happened, 
oh, 2 weeks ago, even 1 week ago, I think there would be a 
whole lot more fear and concern. The more that we learn, at 
least about anthrax, the more I'm convinced that it's a 
difficult weapon to use effectively against us. It's proving to 
be--not a bust, but to whoever is using this against us, it's 
not having, I think, the kind of success they had perhaps 
envisioned.
    We learned today that even if people get infected, if they 
take the antibiotics and the vaccines combined, there's a 
pretty good chance it will be entirely eradicated. For folks 
who have not been infected but have been exposed, simply take 
the antibiotics, they're quite effective. It's not contagious, 
and apparently you have to ingest quite a bit of it in order to 
be infected.
    That doesn't mean we should take this lightly, and we're 
not. But the American people and those of us who work here just 
need to be mindful of, as you said earlier, the facts.
    Thanks, Mr. Chairman.
    Senator Jeffords. Thank you. I'd like to make you aware, we 
are concerned, the committee is, about the communications 
problem. We're working on legislation to grab a part of the 
spectrum so that we can work together to get the unified system 
throughout the country on being able to communicate. We look 
forward to working with you on that.
    Mr. Allbaugh. Thank you, Mr. Chairman.
    Senator Clinton. Mr. Chairman, could I follow up on a point 
that the Director just made with respect to Y2K?
    Senator Jeffords. Yes.
    Senator Clinton. I believe that we had the kind of 
interagency information operation that you have so rightly said 
we should put into place for our current situation. I think it 
would be helpful to take a look at how that was done. There was 
some legislative involvement and oversight. There was obviously 
interagency involvement, but there was a center, and there was 
also an individual who was tasked with being the spokesman, so 
that all information could be double checked before somebody 
had to get out there and make a statement.
    So I think your suggestion is an excellent one. Looking to 
the Y2K experience, which frankly, I think we averted a lot of 
problems because we got on it and people paid attention to it 
and they were held accountable, and what we feared didn't come 
to pass. If there is any legislation or changes in the Stafford 
Act or anything that you believe, Director, that would help you 
respond on that basis, I would certainly like to know about it, 
and I know my colleagues would as well.
    Mr. Allbaugh. We'll make sure everyone knows about it.
    Senator Jeffords. I have one final question for you. It's 
kind of a tough one, I know. Looking forward, with all the 
knowledge you have now, when do you anticipate that you will be 
able to consider the job done?
    Mr. Allbaugh. I'm not sure that the job will ever be done. 
Our lives have changed as a country forever as of September 11. 
We are more vigilant now. We are aware of our surroundings. I 
know the things that I used to take for granted I don't take 
for granted. I have to commend the American public with high 
praise at the way that they've responded to this. It is 
absolutely remarkable. No one's really panicking. We have our 
incidents that you're talking about, and my heart goes out to 
those individuals who are directly affected.
    But I'm not sure, Senator, that our job will ever be done.
    Senator Jeffords. More specifically, relief efforts, people 
involved in relief efforts. When do you anticipate that might 
be complete?
    Mr. Allbaugh. I fully expect to be having an office in New 
York City for years to come. You think back to the Northridge 
earthquake in the early 1990's, we still have an office dealing 
with the multitude of problems in California. This is a 
situation where we'll be lucky to have the site maybe cleaned 
up in 7, 8, or 9 months, maybe a year from now. We have lives 
that we have to help put back together, years and years of 
counseling, small businesses that need to be rebuilt. New York 
City is doing its best to guard against the loss of jobs that 
would affect Lower Manhattan as well as the rest of the city.
    We're willing partners. We're going to be there until the 
bitter end. I'm not the one to decide when the bitter end is. I 
think we'll all know it as a country.
    Senator Jeffords. Thank you.
    Senator Warner.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you very much, Mr. Chairman.
    Most local fire departments aren't familiar with urban 
search and rescue team capabilities until they are faced with a 
situation. Our chief here who's with us today suggests that the 
urban search and rescue resources and procedures be included in 
the curriculum at FEMA's National Emergency Training Center and 
the National Fire Academy. Can you elaborate on that a bit?
    Mr. Allbaugh. I think that's one of the first things that I 
have passed along to the folks at the Fire Administration, that 
we need to, when we bring in individuals from fire departments 
all across the country, we explain to them what resources are 
available, should they need to call upon them.
    I'm not sure that there is a need, Senator, to expand the 
number of urban search and rescue teams nationwide. I do 
believe we need to expand their capabilities. But at a bare 
minimum, men and women who put their lives on the line, whether 
they're with the police department or the fire department or 
emergency managers, ought to have the benefit of knowing 
exactly what resources are at their disposal. We're going to 
make sure that everyone is educated from here on out.
    Senator Warner. As a follow-up, during the Pentagon 
response, of course, our local fire and rescue and Red Cross 
and others performed brilliantly.
    Mr. Allbaugh. They did, indeed.
    Senator Warner. I visited that scene only 4 hours after the 
plane struck, with the Secretary of Defense. He had the highest 
praise for those teams that reacted.
    But during that response, it was learned that there is an 
equipment shortage for urban search and rescue teams that 
allows for only one equipped team to be deployed at any given 
time from any one of the 28 bases. If there are multiple 
instances in one area, how would FEMA respond on a timely 
basis?
    Mr. Allbaugh. I'm not aware of that, Senator. We activated 
18 the first day to New York alone, 4 to the Pentagon and I'm 
not aware of any particular shortage. I do know that we will be 
briefing and debriefing all the teams and will have after-
action reports, so that we make sure we don't make any mistakes 
that may have been committed during this travesty.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you, Director. It's been a pleasure 
having you with us. You're an impressive man and I thank you 
for what you're doing. We reserve the right, as you know, to 
ask you further questions that you can respond to in writing.
    Mr. Allbaugh. Yes, sir. Thank you. I appreciate it.
    Senator Jeffords. Thank you.
    The next panel is made up of Edward Plaugher, Jeff 
Metzinger and Robert Hessinger.
    Chief Plaugher, welcome. It's a pleasure to have you here. 
We know of your efforts and want to praise what you have done. 
We'd like to hear from you and your thoughts about what we can 
do to improve the future.
    Senator Warner. Could I intervene? I want you to know that 
this fine gentleman was the on-scene commander for, I think, 10 
days. His unit was the first to respond. I've communicated now 
with our chairman of the Appropriations Committee a list of 
items which you feel your team needs to have either replaced or 
new equipment. So this is, I recognize all present who have 
done this, but this is one man who's been there from the moment 
it started.
    Thank you again.

 STATEMENT OF EDWARD P. PLAUGHER, CHIEF, ARLINGTON COUNTY, VA 
                        FIRE DEPARTMENT

    Chief Plaugher. Thank you very much. It is indeed a 
pleasure to be here this morning. It's also a great deal of 
pleasure and an honor to represent the men and women, not only 
of the Arlington County Fire Department, but also of the 
Nation. Hopefully my remarks will assist the cause of improving 
our capability to respond to any type of incident.
    Again, I want to thank you for allowing me to be here 
today. I understand that you as a committee are deeply 
concerned, as are all of us, with the tragic events of 
September 11. These events have a profound impact on the men 
and women of my fire department and on the Nation's fire 
service as a whole.
    I have prepared remarks which I hope will be entered into 
the record, and I'll just highlight a couple of the key points 
in order to be brief here this morning, to allow my colleagues 
ample time to testify.
    It is an opportunity for me, however, to talk about the 
incident at the Pentagon. First of all, you need to know, I 
think, is that our response to the Pentagon began when one of 
our engine companies who was responding to another routine call 
noticed the plane and its route to the Pentagon and was 
actually a witness to the incident. Immediately, the northern 
Virginia automatic mutual aid program was activated. Units from 
Fort Myer, Alexandria, Fairfax County and the National Airport 
Fire Department responded from the initial alarm.
    The second alarm units included units from the District of 
Columbia as well as from Montgomery County and Prince George's 
County, MD. These first responding fire units fought a fire 
that was triggered by 6,000 gallons of jet fuel in the world's 
largest office building.
    The Federal Emergency Management Agency, in their response 
to the attack on the Pentagon and its aftermath, was superb. 
FEMA and their front line urban search and rescue teams, which 
I'm sure we're going to hear more about here in a few moments, 
were mobilized from Fairfax County, Virginia Beach, Montgomery 
County, MD; Memphis, TN, and then later on, we received 
assistance from New Mexico to provide relief for the exhausted 
rescue personnel.
    I must tell you, Mr. Chairman and members of the committee, 
that the FEMA urban search and rescue teams made an outstanding 
contribution to our effort. These teams are comprised of 
dedicated professionals whose hard work and unyielding efforts 
should not be overlooked.
    Two resources that were brought to bear to the incident 
scene by FEMA come to mind and stand out in my mind. First was 
the search dog capability. It's a unique and absolutely 
critical, necessary component of a structural collapse search 
that allows for swift and thorough search for victims that 
could not otherwise have been possible. Second, the urban 
search and rescue team brings in specially trained urban search 
and rescue structural engineers that allow us to then proceed 
into the building with safety being paramount to all the 
personnel on the scene.
    However, there's a couple of areas that I think we can do 
to improve our business, and that is the business of response 
to our community, particularly in these types of incidents. 
That is what the director was just talking about, the ability 
to have a clear understanding of the local first responders, of 
what does the urban search and rescue team bring to an 
incident, and particularly the capability of this being taught 
at the National Fire Academy.
    I also think that we need to have a clear understanding of 
the capability that is being developed for these urban search 
and rescue teams. In other words, what I mean is there needs to 
be a standardized list of equipment that is well understood and 
that we can count on when this is deployed. It also occurs to 
me that this complement of equipment and response capability 
should be developed with a panel of experts that seeks out 
local advice so that the folks of us who have been there will 
allow them to be able to adjust their response capability based 
upon our now new experiences.
    We just heard again about the need for additional 
equipment. Most urban search and rescue teams--which in my 
earlier career in Fairfax County, I was fortunate enough to be 
one of the founding members of the team, and participated in 
its early structure--we realize that they are multiple deep in 
personnel, but not multiple deep in equipment. We think that 
now is the time that we could fix that.
    We are, in fact, very lucky and very privileged in the 
Washington Metropolitan area to have two urban search and 
rescue teams in our midst, both Montgomery County, MD and 
Fairfax County, VA. This is a unique situation in our 
community.
    However, one of the things that we also focused, and we 
realized early on in this particular incident at the Pentagon, 
is that there was a need for some command overhead teams. These 
command overhead teams would be chief officers who would be 
experienced in dealing with these incidents and bring to bear 
that extra chief level officer capability. We think that maybe 
there's an opportunity for this to come out in the future.
    The level of cooperation and mutual assistance between FEMA 
and the Arlington County Fire Department was excellent. There 
are many moving parts to an effective response to a terrorist 
incident. Each of us much have a good expectation of our own 
capabilities and a clear understanding of the roles and 
responsibilities of the different agencies.
    In the final analysis, what transpired at the Pentagon, 
under the circumstances, was dealt with professionally and to 
the best of each of our abilities. We at the Arlington County 
Fire Department learned valuable lessons with regard to our own 
abilities and our limits. It is our hope that we can use those 
lessons to further a more effective preparedness approach.
    In concluding my remarks, Mr. Chairman, in speaking with 
the overall Federal preparedness effort, there are said to be 
over 40 different offices and bureaus involved in terrorism 
preparedness across the Federal agencies. Though we have made 
great strides in our interaction with Federal agencies, there 
is an urgent need for better coordination of pre-incident 
support in training programs.
    I personally testified last spring before the House 
Transportation Committee on a piece of legislation designed to 
address this issue. A Senate companion bill, Senate bill 1453, 
the Preparedness Against Terrorism Act of 2001, was recently 
introduced by Senator Bob Smith and referred to this committee. 
This bill codifies the Office of National Preparedness at FEMA 
that President Bush created earlier this year. It creates a 
President's Council that will be charged with the development 
of a single national strategy on terrorism preparedness, that 
will include measurable preparedness goals.
    We applaud President Bush's designation of Governor Tom 
Ridge of Pennsylvania as our new Homeland Security coordinator. 
However, it seems to us that Senate bill 1453 could and would 
bring focus and legal authority to this new effort. It is my 
understanding that the Bush Administration has significant 
input into this bill, and I urge you to make whatever 
modifications are necessary to address Governor Ridge's role 
and to act favorably on the bill in sending it to the full 
Senate for consideration as quickly as possible.
    We owe it to our country to have the best coordinated 
comprehensive terrorism preparedness strategy that is possible. 
Again, thank you for having me here today and I will be happy 
to answer any questions later.
    Senator Jeffords. Thank you, Chief.
    I'm going to ask all the witnesses to testify and then 
we'll have questions. I assure you we've taken notice of your 
remarks with respect to what we should do, especially with the 
new role for Governor Ridge.
    Captain Metzinger.

STATEMENT OF JEFFREY L. METZINGER, FIRE CAPTAIN, SACRAMENTO, CA 
   METROPOLITAN FIRE DISTRICT; MEMBER, FEMA URBAN SEARCH AND 
                          RESCUE TEAM

    Captain Metzinger. Good morning Mr. Chairman and members of 
the committee. I'm Captain Jeff Metzinger, I'm with the 
Sacramento Metropolitan Fire District in northern California. 
I'm also a member of California's Urban Search and Rescue Team, 
California Task Force 7.
    Like the others here, I am also honored and very humbled to 
be talking to you this morning, representing the thousands of 
firefighters across this country who put their lives on the 
line every day.
    We were dispatched to the World Trade Center on the morning 
of September 11, as so many other teams were. I keep a journal 
with me wherever I go, and I brought it with me today and I'm 
going to read some excerpts for you. It's a habit I've had for 
a long time, and I think there's some value in there.
    I'll start out on Wednesday, September 12.
    We're finally leaving for New York City and everyone is 
anxious to get to work. As we approach the Hudson River from 
New Jersey, you can see a large column of smoke coming up from 
the site where the World Trade Center used to stand.
    This is my first trip to New York City, and I feel sad 
about what I see. The traffic is incredible, even with a full 
police escort. The corners are filled with people, and we're 
just now a few blocks away from the large smoke column I had 
seen earlier. We arrive at the Javits Convention Center by 7 
p.m. and set up our base of operations. There's other teams 
coming in as well, including teams from Los Angeles, Missouri, 
Indianapolis, Riverside, California, Pennsylvania, 
Massachusetts and Ohio.
    Our 62 person team is divided into two teams, where we 
alternate 12-hour shifts, working 24 hours around the clock. 
I'm assigned to the Blue team, working the night shift. The 
first night, on September 13, we loaded into the bus and headed 
into our sector to go to work. We met up with the Gray team and 
did a pass-on of information, and began to take a brief tour of 
the collapse zone along Church Street.
    The scene was surreal. There were people everywhere. Smoke 
continued to drift from the massive piles of rubble. The 
expanse of the disaster is difficult to comprehend. Several 
searches are conducted by our search dogs in the vicinity of 
Tower Seven. The technical search cameras were also used, but 
we had no luck finding any victims.
    The following night, our team was working again, looking 
for an assignment. The dogs alerted an area, but at a very 
dangerous location. It was too unstable to enter. That night 
there was thunder, lightning, wind and heavy rains pounding 
upon us. Frequently, debris--large pieces of metal were blowing 
off the roofs of adjacent buildings. Our task force leader 
determined it wasn't safe for us to go any farther, we didn't 
want to lose any further lives.
    The next afternoon we had a briefing from our task force 
leader at our base and were told that President Bush would be 
visiting our facility that day. I was privileged to meet and 
shake hands with President Bush, with Senator Hillary Rodham 
Clinton, and the governor and the mayor were also present. It 
was quite an experience, and their visit was very much 
appreciated by all.
    That night on the bus we were headed back to work, still 
hundreds of people lining the streets of New York City, 
cheering us as we go by. Traffic was so congested that we 
finally stopped the bus, got off and walked the last few blocks 
to the Church and Dey command post. Tonight our search team is 
finally getting to do some work, putting up a rope system to 
lower one of our members down into the debris crater near 
Church Street. The objective here is to place a cellular phone 
antenna down lower that might assist with victim locations.
    The following night we were headed back to work and again 
people were lining the streets, cheering, waving flags, holding 
signs, lighting candles. It was a sight that warmed us every 
night as we went in. This particular night, our search and 
rescue teams were assigned to search the buildings around the 
outer perimeter of the plaza area. There are several 30-plus 
story buildings around the World Trade Center plaza. We 
conducted searches from basement to roof, every door was 
opened, every space was checked. We climbed the stairwells, 
taking on one building at a time.
    We didn't find any victims. Every floor of every building 
we searched was marked and completed. The assignment took a lot 
of toll on our legs that night.
    On Sunday, during our briefing, we were told that three top 
New York fire chiefs were laid to rest that day. Firefighter 
Chaplain Ward Cockerton said a prayer for the victims and for 
the safety of the team members that are still working here.
    Tonight we're going to work between buildings five and six, 
possibly going underground. We hear that there's up to six 
levels below the street grade. So we reported to the Church and 
Dey command post that night and I personally got assigned my 
first job as head rigger, which is my assignment with the team. 
Steve of Massachusetts Task Force One was there, and he and I 
worked with four New York City iron workers through the night, 
using a 90-10 crane, moving tons of debris all night long.
    The following day we were back at work on the same crane, 
and a new group of iron workers. We made a connection with some 
guys by the name of Mike, Rich and Kevin. They're all great 
people. I found that the New York iron workers and construction 
workers are just incredibly great folks.
    We cut and moved tons of steel again tonight. In the middle 
of the night I found a child's doll in the rubble, and I 
realized suddenly how much I missed my family. I heard our 
response team found a victim this morning, a police officer. 
Our hopes for a live rescue are starting to dim.
    The next day we were back on the bus to the work site 
again. I'm already tired. We've averaged about 3 hours of sleep 
per night. Even when we get time to rest, you can't sleep.
    Heading back to the crane, we worked all night again, 
moving steel, looking for bodies. I've noticed for several 
nights that there's very little debris that's recognizable. 
There's no desks, there's no chairs, carpet or sheet rock or 
anything else you'd associate with an office building, just the 
steel structure. There are still no victims in the area we're 
working in.
    On September 18, we're back in the pile again, moving steel 
and searching for victims. Today the smell of death is more 
evident. I found a business card of a man with an office on the 
83rd floor of one of the towers, and I wondered what his fate 
was at that moment. I said a prayer for him and hoped he is 
alive and well. I'm still not sure what his fate is.
    Around midnight that night, the crane operation was halted 
while they were moving in a larger crane. When the crane shut 
down, I joined forces with some of the New York firefighters. 
Two of the battalion chiefs were out there with their sleeves 
rolled up, working right alongside of us. We were moving debris 
by hand, and that was a very solemn night. Went home tired that 
day.
    The following day, Thursday, September 20, we started 
heading home, packing our equipment. It's been a long 10 days 
and everyone is exhausted. The team physician just diagnosed me 
with bronchitis. The dust we've been breathing all week finally 
caught up to us. Many others in the team had the same complaint 
of headache, sore throat, sinus congestion and sometimes fever. 
But most of all, everybody's troubled that we didn't find any 
victims.
    Finally, on Friday, we land back in northern California, 
Travis Air Force Base, and we get a full police escort all the 
way back to Sacramento. Every freeway overpass for 40 miles was 
covered with fire engines, police cars and citizens cheering us 
home. It was a warm reception.
    We arrived in Sacramento to a similar greeting of family, 
friends, co-workers and media. I realized then for the people 
of Sacramento that we were their connection to this tragedy on 
the East Coast. It felt good to be home, but I felt like a part 
of me was still in New York. When I go to sleep, I still dream 
that I'm there. It doesn't leave us.
    I just want to close and say that firefighters and law 
enforcement and EMS people are going to continue to be the 
first responders arriving at these incidents, and the toll is 
tremendous. The toll is tremendous on what I saw on the New 
York City firefighters, and for those of us who just came there 
and left, it took a toll as well, physically and mentally. We 
owe it to ourselves to be prepared for future incidents, to 
take care of our responders and make sure that we are afforded 
everything that we can possibly do to be ready for the next 
one.
    I appreciate the opportunity to share my thoughts with you, 
and I'm available for your questions. That's all, thank you.
    Senator Jeffords. Thank you.
    Senator Voinovich. Mr. Chairman, do you mind if I introduce 
Mr. Hessinger?
    Senator Jeffords. You may do that, yes, certainly.
    Senator Voinovich. Mr. Chairman and members of the 
committee, Ohio Task Force One is a designated FEMA emergency 
response team. It's made up of volunteers from fire departments 
across Ohio, and it's coordinated out of Wright-Patterson Air 
Force Base. Mr. Hessinger is the logistics chief for the Ohio 
Task Force One. I think I'd like to underscore that in his 
regular job, he's a firefighter-paramedic with the Kettering, 
OH, fire department. He's also accompanied today by Mike 
Kenney, who's a captain in the Dayton, OH fire department, and 
he's also a member of Ohio Task Force One. We're very happy 
that you're here with us today.
    Seventy-two members of that Ohio Task Force were mobilized 
just after the attack at the World Trade Center, and were among 
the first out-of-State FEMA teams to respond to Ground Zero. 
Robert, we're really happy to have you with us here today. 
Thank you for your service.
    Senator Jeffords. You have your friend with you, I guess. 
Would you come up?
    Mr. Hessinger, please proceed.

STATEMENT OF ROBERT HESSINGER, LOGISTICS SECTION MANAGER, OHIO 
  TASK FORCE ONE; ACCOMPANIED BY SQUAD OFFICER MICHAEL KENNEY

    Chief Hessinger. Thank you, Senators, distinguished guests. 
As Senator Voinovich pointed out, I'm Robert Hessinger, 
Logistics chief. Mike Kenney here today with me is a rescue 
squad officer with Ohio Task Force One. We were deployed to the 
New York City terrorist attacks on the World Trade Center 
September 11, 2001.
    I'd like to start by saying thank you for allowing us to 
share our experiences with you. I hope you'll take what we say 
and continue support with FEMA.
    Ohio Task Force One was established as a FEMA urban search 
and rescue team in the spring of 1997, and is located on 
Wright-Patterson Air Force Base in Dayton, OH. Ohio Task Force 
One was officially activated as one of the first three FEMA 
task force groups. It was our first national appointment, and 
we were activated at 1100 hours on September 11, 2001, to 
respond to New York City by ground mobilization.
    Ohio Task Force deployment was multi-faceted, due to our 
members' activity within the FEMA system. Our task force 
leader, James Gruenberg, was deployed as a part of FEMA's Red 
Incident Support Team, which is the overhead team the Chief 
spoke about. Our task force leader, Robert McKee, was also 
deployed as part of the Blue Incident Support Team.
    Operationally, Ohio Task Force One arrived at Jacob Javits 
Center in Manhattan, NY, approximately 6 a.m. on September 12, 
2001, making it the third FEMA urban search and rescue team 
behind Massachusetts and Pennsylvania. Primary mission of Ohio 
Task Force One upon arrival was to establish the rear base of 
operations, that we refer to as a BoO. The task force also 
created two operational teams by splitting the members into 
daytime and night-time operations, running a 7 a.m. to 7 p.m. 
shift, 12-hour operational periods. At approximately noon on 
September 12, task force leader Muhl became the daytime 
operation leader and proceeded to Ground Zero. The first 
operation was to set up the forward BoO, and after came a few 
missions confirming victims using K-9 teams and searching void 
spaces found in the rubble pile.
    The first full operational period for the task force came 
on the day shift Thursday, September 13. None of the team 
members were ready for the magnitude of the destruction and the 
size of the collapse. Ohio Task Force One was given many 
missions dealing with technical search of void areas with 
search cameras and the team's K-9 handlers could not keep up 
with the multitude of requests from division commanders and the 
workers on the pile alike.
    Task Force Leader Muhl worked closely with the FDNY sector 
commander to coordinate sub-level void searches, technical 
rigging decisions and structural evaluations by Ohio's 
structural specialists. One of the missions included rigging a 
rope lowering system to penetrate a small opening in a 
collapsed stairwell to search a mechanical room four levels 
below grade. Mike Kenney was on that team to do that.
    At this point, optimism within the team ran high, due to 
the size and structural stability of those void spaces. The 
rescue team also attempted to rig another rope system to lower 
searchers into a void where previously Fire Department New York 
Ladder 6 personnel had survived the collapse. The anchoring 
points were found to be inadequate in order to appropriately 
rig a lowering system. This was the first letdown the team had 
suffered and found it difficult to convey to fellow FDNY 
firefighters.
    Continued missions to search void spaces turned up parking 
levels with thigh deep, contaminated waters and more void 
spaces without live finds. A mission to secure and remove 
impaled steel of the World Financial Building was changed by 
the task force structural special specialist to securing the 
piece of steel directly to the main structure, due to increased 
risk to rescue workers. This decision proved to be the correct 
one, and the piece of steel remained stable.
    Day operations were also tasked with reconnaissance of the 
surrounding buildings. Teams climbed and searched multiple 
buildings, breached locked doors and systematically marked 
cleared areas for a thorough search. A couple of searchers 
turned up citizens either not able to traverse the lengthy trip 
down the stairs or unwilling to leave their personal 
possessions after being so violently violated.
    As a FEMA USAR task force, we are given the task to support 
local jurisdictions in the mitigation of an overwhelming 
situation. The fire department in New York was placed in such a 
situation. The FEMA urban search and rescue concept was alien 
to the workers we encountered due to the loss of the majority 
of the special rescue personnel within their fire department.
    As fellow firefighters, we offered special equipment, a 
fresh and educated set of hands, and the confidence that rescue 
was being accomplished to the best of our abilities. On the 
last operational period, Ohio Task Force One stopped by Fire 
Department New York's Rescue 5 to pay their respects and donate 
equipment that would aid in the rebuilding of this 
distinguished company. We hope that this will somehow leave a 
lasting impression of the FEMA system and the first class teams 
that adorn it.
    Ohio Task Force One was given demobilization orders on 
Tuesday, September 18, with a departure date of Thursday, 
September 20. The citizens and leaders in Ohio made the return 
trip a memorable one with police escorts, fire department 
apparatus lining the highways, citizens with banners on 
overpasses and our families at Wright-Patterson Air Force Base.
    The support Ohio Task Force One was given by the Incident 
Support Teams of FEMA and the expertise and guidance of those 
placed in charge of this tragedy were professional, no matter 
what the situation. Given this event we commend all men and 
women in those positions for an exemplary job.
    Ohio Task Force One would like to thank FEMA, the State of 
Ohio, our families for all the support given to us over the 
years. We would also like to thank the Environment and Public 
Works Committee for your time today, and continued support in 
protecting our Nation. May God bless all of us.
    Senator Jeffords. Thank you. We all know how difficult it 
is for all of you to be here today to relive those very, very 
difficult days. I want to commend you all.
    I also want to know what we can learn from your 
experiences. We have already had the discussion today about the 
communications systems and the need, perhaps, for more 
uniformity and the ability to make sure that you can move from 
one area of the country to another, as all of you did, to be 
able to communicate. Do you have suggestions or comments on any 
difficulties that you had or will have in the communications 
systems?
    Chief Plaugher.
    Chief Plaugher. Yes, Senator. I had the privilege last week 
to testify at another Senate committee on this very same issue, 
the Commerce and Technology Subcommittee. It is absolutely 
critical that this Nation set aside a set of frequencies, a set 
of spectrum for public safety use.
    It's beyond me that it hasn't been done. We're told, 
anyway, from the professional associations, that oftentimes 
there's a debate between selling these frequencies on the open 
market to the private industry or reserving them for public 
safety. For me, there is no debate.
    Senator Jeffords. Any other comments?
    Captain Metzinger. I'd like to say, it's been addressed 
earlier at the Federal level with FEMA. The current 28 teams 
you now have in this country, I think more and more now we're 
finding that we're working together on incidents such as this 
tragedy in New York City and the Pentagon, that we could use 
more national training together. We frequently do our training 
locally, but we don't have the opportunity to train as a 
Nation, as teams coming together. That would be really 
beneficial to us.
    We've got equipment, we've got people. The one thing we 
need most is the opportunity to train and prepare for these 
incidents. That's where the big expense comes from, is 
personnel cost. If you can continue to support the USAR concept 
through FEMA and training dollars and helping us be prepared, 
it's probably as important as anything.
    Along with that, there isn't a city or community in this 
country that probably couldn't use additional support for their 
own fire departments at home. We constantly struggle each year 
with budget cuts and competing with other entities in the 
cities, the libraries, the parks, the school districts. All are 
very important. But this is one where people can lose their 
lives. These people in the front lines are important to every 
community. I think the more support you can give to local 
resources the better off we're all going to be.
    Senator Jeffords. I used to be a volunteer fireman. I was 
alarmed to travel around my State a couple of years ago and to 
find out the cost to individuals to be able to volunteer, 
essentially, with respect to necessary equipment. Is that a 
national problem, and how do you, the small, local governments, 
provide the equipment for entering burning buildings and things 
like that?
    Captain Metzinger. It is a national problem. It's a problem 
that everyone faces. It's a matter of dollars. If the money's 
there, there's no limit to what they can purchase or the 
training that they can do. We're often limited by how much we 
can afford to do. That's a sad thing.
    I live in a large community, Sacramento is the capital of 
the State of California. In Sacramento, we have two hazmat 
teams for a million people. We've got a community with over 50 
fire stations, and we're stretching our resources to the limit. 
I think we can improve on that.
    Obviously, we're doing things now that we never thought we 
would do. When I entered the fire service 20 years ago, we 
fought fires and we helped people. Now we're doing technical 
rescue, we're doing water rescue, we're doing hazardous 
materials, we're doing advanced life support. We're dealing 
with natural disasters like hurricanes and earthquakes, the 
run-of-the-mill wildland fires. Now we're asked to deal with 
domestic terrorism as well. It's just another thing on our 
plate, and we can only stretch what we're doing so far.
    I think we'll continue to do it, we're happy to do it, 
that's what we want to do, is feel supportive. We'll continue 
to do as good as we can.
    Senator Jeffords. Any other comments?
    Chief Hessinger.
    Chief Hessinger. Mr. Chairman, I'd like to thank Senator 
Clinton and Director Allbaugh for their comments on the 
communications issue. We felt that a couple places that the 
deployment would have gone smoother, although the Ohio Task 
Force, this was our first deployment, and we had, operationally 
with FEMA, a very good, positive outcome with the way things 
went through the FEMA system, how immediately the dispatched 
the teams and responded.
    The communication was definitely an area that needs to be 
addressed, with better communications and ground transportation 
conveys. When you get into some of the areas of West Virginia, 
Pennsylvania that we drove through, communications becomes 
difficult. It's a safety issue at night in the middle of West 
Virginia if you lose a truck behind you full of people who 
can't keep up with your convoy or breaks down.
    The other issue that I was very glad to hear Senator 
Clinton bring up was the health concerns of workers onsite and 
after the activities. Ohio Task Force has been in contact with 
many of the other task forces with concerns of respiratory 
problems being faced by the workers returning home from New 
York City. We have personally had five members with pneumonia, 
one has been hospitalized. I know Sacramento Task Force was the 
other one hit hard with upper respiratory infections and 
pneumonia. Hearing that there is concern on this committee with 
acute and long term health effects from this is very 
satisfying, and makes us feel comfortable that this committee 
will see that the proper thing is being done for the workers 
after the fact.
    Senator Jeffords. Mr. Kenney, do you have anything you'd 
like to say in that regard?
    Mr. Kenney. I'd like to reiterate what Mr. Hessinger said 
about the communications issue. I was charged with driving one 
of the vehicles, and it is an issue, the communications issue, 
between vehicles while you're enroute.
    Also, it was an issue being able to communicate back and 
forth from Midtown Manhattan to Ground Zero. We were really 
unable to communicate back and forth. So if we needed something 
from our rear base of operations, we had to send somebody back, 
actually.
    Senator Jeffords. Senator Smith.
    Senator Smith. Mr. Chairman, Senator Warner has to leave, 
and I'm going to yield part of my time to him for a question.
    Senator Warner. I have the Chief of Naval Operations up on 
the matters he's faced with waiting in my office. I'm just 
going to go quickly to Chief Plaugher. You were the first 
responder in Arlington County. My estimate is there are about 
40 different Government agencies and cadres of employees 
scattered in 40 different locations.
    We had here, most unfortunately yesterday, an anthrax 
situation. I'll just call it a situation, it's been fully 
publicized. You would be the first to respond, in all 
probability, to some of these outlying Federal Government 
offices. Fortunately, here we had in place expertise. I doubt 
if that expertise is 5, 10, 15, 20 miles beyond the Capitol.
    What sort of equipment do you have and expertise do you 
have to do on-scene ascertainment of the presence or absence, 
say, of an anthrax chemical or biological attack?
    Chief Plaugher. Thank you, Senator, for the question. The 
Arlington County Fire Department does in fact have a large 
Federal presence in our jurisdiction. We've been working on 
terrorism and terrorism preparedness for many years. There are 
some equipment shortfalls that we have recently requested 
through some channels for support from Congress on.
    But it is a complex issue, and as we are dealing with these 
anthrax issues, the situations, I think that's an excellent way 
to describe it, Senator, it is the whole ability to maintain 
continuity, the whole ability to not let our way of life be 
disrupted. That is all about confidence. That is all about us 
first responders having the necessary equipment to go out and 
deal with the package, the letter, the document, the box, the 
whatever, and exude confidence that we have the ability to 
analyze it properly and to make the right decision for the 
general well-being of the public.
    So we do need that capability, we do need that 
specialization.
    Senator Warner. You have some capability now?
    Chief Plaugher. Yes, sir, we do have some capability.
    Senator Warner. But it has to be enhanced by other 
equipment.
    Chief Plaugher. Right. We do have some capability now, and 
we have requested actually----
    Senator Warner. I have your request here, and I will, 
together with other colleagues from Virginia, put that in to 
the appropriate appropriations channel here.
    I thank the chair, and I thank Mr. Smith.
    Chief Plaugher. Before the Senator leaves, he was a major 
player in the Fire Act of last year. I know that goes without 
saying, but Mr. Chairman, you asked the question about needs 
for volunteer fire departments or fire departments nationwide. 
That $100 million that was recently awarded to the fire service 
as a Nation is a great start.
    But it does not meet our needs. As we know, we only funded 
six program areas this year. There were 19,000 grant requests 
for those 6 program areas totaling $3 billion, and there was 
only $100 million. I know in my department, I submitted, 
because you were allowed to submit for two, I submitted for two 
grants, one of which was a cancer prevention grant for my 
department that would have allowed me to equip my firefighters 
with a second set of turnout clothing so that they would not 
have to wear contaminated clothing in a situation like the 
Pentagon, because they would have a set to be out to be 
decontaminated while they were working in the incident.
    The second grant was for a community public education in 
our wonderfully diverse community that we have in Arlington 
County. Because we just simply don't have the resources to be 
effective with our diversity that we have. Neither one of them 
were funded. Why? Because there is a huge need, because there 
are other volunteer fire departments out there that don't have 
one set of turnout clothing. We have simply got to fix our 
first responders' need in this Nation.
    Thank you, Senator. Thank you for your leadership last 
year.
    Senator Jeffords. Thank you very much, Chief, for that 
information.
    Senator Clinton.
    Senator Clinton. Thank you, and I want to thank each of you 
for being here. I cannot tell you how much we appreciate your 
willingness to share your experiences and give us the benefit 
of your experience and your insight.
    There are many specific issues that we need your help on. 
We've touched on some of those, the communications, the health 
follow-up, additional funding into the Fire Act, a lot of very 
good ideas. But I want to just ask, in addition to your being 
on the front lines, which you all have been, and I remember 
meeting the Sacramento team and the Ohio team when I was there 
with the President. I remember a number of you telling me you'd 
never been to New York before, and we were so grateful to see 
you there.
    In addition to your service, I know this is hard on your 
families. I know that it is a very big sacrifice when you go 
off to do the mission you're trained to do. How are they doing, 
and is there more that we should do to try to support those who 
support you on the front lines?
    Chief Plaugher.
    Chief Plaugher. I think the families are part of the 
behind-the-scenes component that makes all of us successful. I 
know we're working real hard in our department to express our 
appreciation to the families. We just had a simple gesture, a 
picnic, where we invited all the firefighters and their 
families for a day, for an afternoon, to come and share stories 
and to talk to our health care professionals and talk to other 
members of the department so they know they're not in this by 
themselves, they know that there are other family members going 
through the same thing, which is their husband or wife that's 
gone for a long period of time, staffing fire stations. Because 
while we were engaged at the Pentagon, we still had to provide 
services to the community of Arlington and its businesses.
    So there was a great burden. For days, husbands and wives 
didn't see each other for simply a couple of weeks at a time. 
So we wanted to thank them. I think that's what this Nation 
needs to do. It also needs to thank the families of the first 
responders.
    Senator Clinton. Captain Metzinger.
    Captain Metzinger. One of the things that they set up for 
us at the convention center was a phone bank. That was the 
first time I'd seen something like that. I'd been on a lot of 
campaign fires with wildland incidents in California where I 
used my cell phone on a mountaintop someplace trying to reach 
my family. But we were able to call from that site there any 
time of day or night. It was a great thing for us to have. I 
could call home.
    One of the first things my wife asked me when I got back 
was, how much longer was I going to do this. I said, ``Well, as 
long as I'm a firefighter, probably.''
    I remember when I was working this particular scene on the 
picture here, that's me there working with those New York 
firefighters. One day we were working, night, actually, and I 
looked down and I could see 60 or 70 feet down through there. I 
said, ``Oh, my gosh, come here and look at this, you guys.'' 
Two of them said, ``No, I don't want to look, don't even talk 
to me about it.'' And I said, ``Come here and look,'' and they 
said ``no.''
    The guy looked at me and said, ``Why are you doing this? 
Why are you here?'' I said, ``Well, I'm here to help.'' I said, 
``I'm a firefighter.'' He didn't know I was a firefighter, 
actually. He thought FEMA was some kind of a Federal unit that 
came out of someplace, I'm not sure where. But it was 
interesting, his perspective. He wondered why we're there, and 
it's just to help.
    Our families, they were worried for us at home. Our 
particular department set up a hot line that they could call 24 
hours a day and get an update on what we are doing. If other 
teams aren't doing that, I'd really suggest it. It was very 
helpful. If they had a need, they could call someone locally. I 
had one of our chiefs come to my house and change the smoke 
detector, somebody else came and mowed my lawn. Our neighbors 
brought over food. It was really a nice thing. Our community 
came together across this country.
    The fire service usually takes care of itself. We're a 
family unlike any other, I think. It's pretty nice to see that 
that happened at this event as well.
    Senator Clinton. Chief Hessinger.
    Chief Hessinger. Mr. Chairman, Senator, I think I would 
echo the thoughts of the Captain here that the critical 
incident stress system that they've put in place for 
firefighters now has came leap years ahead now in the last 
probably 5 or 10 years, especially since Oklahoma City. 
Firefighters take care of their own while they're in situations 
like this. We also had hot lines set up.
    But just continue to support the critical incident stress 
system and the debriefings and continue debriefings for 
families who need it, would be all I could see.
    Senator Clinton. Thank you.
    Chief Hessinger. I have a personal note. My wife and I--I 
have a 2-way pager. Every morning on the bus ride to work, I 
paged her and talked to her on the internet and every night 
when I came home. So this bonded me with her, even being that 
far away.
    Also, last night she attended a stress debriefing for the 
spouses for Ohio Task Force One members. I called her, it was 
supposed to start at 7 p.m. and I called at 8:30 and 9 o'clock, 
and she wasn't home until 10 o'clock. It was really kind of 
amazing to me that there was only three of them there, but they 
spent that much time with them. So it really meant a lot to 
her.
    Senator Clinton. I really thank you, I thank you for your 
service and I thank you for your commitment. I think that we 
have to pay more attention to the support systems that our 
firefighters and our first response teams need, both for 
themselves and their families, in order to be able to address 
all of the demands that they're now facing. Thank you.
    Senator Jeffords. Senator Voinovich.
    Senator Voinovich. Mr. Chairman, I want to thank you for 
allowing these gentlemen who are on the front lines to come in 
and testify before us today. I was emotionally touched by their 
testimony and how they were impacted on their experience in New 
York. We can only imagine the grief of the families who lost 
their loved ones, in the fire and police service and the 
families who were the victims of the act of terrorism.
    I want you to know that your testimony today has made me 
more committed than ever to do everything that I can to make 
sure that we don't experience the kind of thing that we 
experienced in New York and in Washington, and to do everything 
in my power to make sure that we eradicate terrorism in the 
world. It's your kind of testimony that really brings it right 
home to what this is all about. I think so often, a lot of 
people who aren't touched by what you have been touched with 
don't really understand how important this effort is that we're 
undertaking.
    You talked about respiratory problems in Sacramento and 
respiratory problems in Ohio. Was there some kind of equipment 
that your people could have worn that would have avoided their 
having this aftermath from their work there in New York?
    Chief Hessinger. Senator, I think the equipment was there. 
The respirators that were called for, what the task force 
carries was adequate or supposed to be adequate in order to 
keep you busy for 72 hours. We're supposed to be self-
sufficient for 72 hours. 3-M, that would be the corporation 
that manufactures the filters that we were supposed to be 
using, came in probably within 4 days and brought a lot more of 
those filters in to support us. FEMA did a good job getting 
those filters to us.
    So I think the equipment is there, and it is in place. 
Again, this was just such an overwhelming and magnificent site, 
and the size of it. The dust that was left when we first got to 
the forward BoO, the firefighters and the rescuers were walking 
through dust that was 5-, 6-inches deep in some areas. So just 
the amount of stuff in the air and the particles in the air, we 
went through masks a lot quicker than I think anyone ever could 
have suspected. I think that was just, that was the deficiency 
that we found. It wasn't a deficiency that could ever have been 
foreseen.
    Senator Voinovich. So in other words, you had the 
equipment, but the challenge was so overwhelming that it was 
too much for the equipment and then you didn't have the filters 
to replace them as soon as you would like to have them.
    I'd be interested to know from both of you, Captain and 
Chief Hessinger, how long have your units been in place, how do 
they come into existence and obviously, do you think the 
training that you had was adequate to get the job done or not, 
and do you feel that the equipment that you had was adequate?
    Captain Metzinger. I'll speak for our team. I believe our 
equipment was adequate to get the job done, although this did 
present some new issues for us. In California, we're used to 
concrete buildings, and this was entirely out of steel. That 
presented its own problems for us, with cutting and removing.
    The amount of steel in this thing is so tremendous, I'm 
intimate with that building now, for spending so many nights 
out there with those iron workers, cutting that stuff into 
pieces. It's incredible, the weight and the thickness, the 
diameter of the steel in that building. It takes large torches 
and cutters to cut through that stuff that we don't really 
normally carry. We have small cutters and torches for rebar and 
smaller pieces of metal.
    That's an area where we could probably expand our 
capabilities and our expertise as well. We could have used a 
lot of people out there doing what those New York City iron 
workers were doing. That's one area I know we could expand in.
    I joined the team right after the Federal building disaster 
in Oklahoma City. We lost a lot of team members after that 
incident that just didn't want to be a part of it any more, the 
traumas that they went through there in Oklahoma City. I know 
our team has responded to the Northridge earthquake, the 
Oklahoma disaster, the Loma Prieta earthquake, we went to 
Atlanta for the preparation of the Olympics there in 1986, and 
other smaller incidents locally.
    I know our team has been around, I'm not sure what the age 
is, but it's probably at least 10 years. It's grown. I've seen 
every incident we've gone to, we've grown in expertise and 
equipment. We keep adding to our cache of equipment, it's grown 
every year, and it needs to continue to grow.
    Chief Hessinger. Senator, I think the cache and the 
training we carry was sufficient. I don't think there's any way 
that you could have foreseen something like this happening. It 
would have taxed any system, all 28 teams. One of the Senators 
that asked a question about, do we feel that if this happened 
in another city would it have been as easy or as smooth an 
operation. The amount of resources New York City committed to 
this right off the bat was astounding. When we got there, there 
were thousands of iron workers, there were 16,000 firefighters 
to commit to this, there were 40,000 police officers to commit 
to this, on top of everything else that New York City has 
resource-wise.
    So just from that, seeing that system taxed to its max, and 
seeing the Federal system taxed to its max just shows the 
actual magnitude of this incident. I think FEMA has done a good 
job at caching us out reasonably. To create an inventory of 
equipment to handle a situation such as New York City would be 
astronomical and what the teams would be carrying and the price 
to do that.
    So there are probably things, as the Captain mentioned, 
that we can improve on and maybe buy. But I think, before this 
incident, I think the caches were fairly sufficient. The 
training has been there.
    Senator Voinovich. The training was great.
    Chief Plaugher. Senator, just one quick point. One of the 
discussions that is going on right now within my industry, and 
that is within the fire chiefs of the United States, and 
particularly the fire chiefs terrorism committee, is the 
creation of a small layer of urban search and rescue teams 
called USAR-lights, that would be based in the metropolitan 
area.
    Senator Voinovich. What are they called again?
    Chief Plaugher. USAR-light, they would be a small slice of 
a full-blown FEMA team that would be locally available in the 
first hour of the incident for a collapsed building, collapsed 
structure. They would not have nearly the capability or the 
robustness of a full FEMA team, but it would be able to be into 
an incident scene within the first hour to start rescue 
operations. It might have one search dog, might have one 
engineer, that sort of thing. We're still working on the 
development of that, and it's going to take some resources, 
obviously, to set it up in the metropolitan areas of the United 
States.
    The teams are fabulous, but it takes them many hours to get 
deployed, in some cases days to go to places like New York City 
from Sacramento. We think there could be a small segment of 
that capability. This is all new to our industry. As the 
Captain was alluding to earlier, we used to fight fires 20 
years ago. Now we're your first responders for everything that 
might harm you. So we're trying to develop these programs as 
we're learning.
    So I was interested in their comment about steel cutting 
equipment and stuff like that. There's a lot we can learn.
    Senator Jeffords. Thank you, sir.
    Senator Corzine.
    Senator Corzine. Thank you. I don't really have words to 
say how you all convey the message of commitment that you and 
the folks that you work with have given to the country and to 
people every day. I hope folks that watch C-SPAN get a chance 
to hear the testimony. It's truly remarkable.
    I would love to hear comments on specific equipment needs, 
generic areas that underlie this $3 billion of requests that 
you talked about and that we have been somewhat remiss in 
meeting the needs. Are there particular categorizations of 
areas where we ought to be giving specific focus to? Second of 
all, I'd love to know whether, and this gets back at the 
bioterrorism situation if you will, whether training with 
regard to this and planning with regard to this is built in to 
the urban search and rescue missions at FEMA, and are there 
steps that we need to be taking to make sure that we're better 
prepared in carrying those efforts out. If there are efforts, 
were they in practice and effective with the situation that 
occurred on September 11?
    Chief Plaugher. Senator, I can only answer part of those 
questions, because the FEMA response to bioterrorism, I'm not 
quite sure what level the FEMA team deals with that issue.
    As far as your first question about the equipment, we need 
to make sure that our first responders, particularly our fire 
and emergency medical service responders, have the equipment 
necessary. We have some fire departments that are operating 40-
year-old second-hand, third-hand, fourth-hand fire apparatus 
that the reliability is second, it's questionable. It's sad.
    I recently visited a small fire department in the mountains 
of southwest Virginia. The first line piece of fire apparatus 
was a 1956 flatbed Ford truck that had a round 250 gallon water 
tank bolted on the back of it, and a small little 5-gallon-a-
minute pump. Somehow, we've got to fix this in our Nation.
    At the time I was the president of the State Chiefs 
Association of Virginia. We were diligently working through the 
State to try to fix this. So there is some relationship with 
the State, not just with the Federal Government here, that has 
to come out as well.
    But we need to make sure that we have capability 
assessments, as was talked before earlier by the Director, and 
that these capability assessments are State by State and 
community by community, so that we can manage those hazards 
that we're asked to manage every day. Our communities feel good 
about their local first responders and their capability.
    I'll also take this opportunity to talk about another one 
of my deep concerns about our Nation and our ability to respond 
to the bioterrorism question earlier. As a fire chief, and I'm 
deeply concerned about our medical system capability to 
respond, neither in New York nor the Pentagon nor in 
Pennsylvania did we actually test our ability to deal with 
thousands of casualties on our medical system.
    I truly think that we need to fix it. I think we need to 
roll up our sleeves and we need to work diligently to make sure 
that adequate disaster response capability from our medical 
community exists everywhere, and that it's worked on very, very 
hard, and that we don't assume that it's there. We all know 
that we have a medical community that the hospital is profit-
based in a lot of communities. Those that are not profit-based 
are non-profits that are struggling to meet the demands of a 
community for indigent care and other needs.
    On top of that, we pile the disaster capability needs, and 
then we wonder why it's missing. Well, I think we need to take 
it out of that arena and we need to say that there is an 
absolute requirement in our communities that disaster 
capability, the ability to deal with hundreds, if not 
thousands, of casualties from a bioterrorism or a natural 
disaster is prepared and ready. We need to make sure that it's 
tested and it's exercised and that it has the necessary 
components.
    I think we need to have some real honest dialog about the 
ability to do that, to make sure that there's adequate funding 
for the State capability. We do it in other areas. We do it for 
the highway interstate system, we do it for the FAA system to 
make sure that there's Federal dollars provided to manage those 
things. We need to do it for here. I'll defer to these other 
gentlemen about the FEMA's urban search and rescue capability 
for bioterrorism.
    Senator Corzine. Thank you, Chief.
    Chief Plaugher. Thank you.
    Mr. Kenney. Just from a worker's perspective, we went to 
work every day down there, and we really didn't know what was 
on those planes. They could have been carrying anything. But at 
no time were we checked for anything. So I think it would 
really better our capabilities if we brought in some type of 
medical----
    Senator Corzine. It isn't part of the regular protocol of 
what you were experiencing as you carried out your efforts?
    Mr. Kenney. Right. Exactly. So you know, if we could bring 
in some type of medical team that would look after our needs as 
well as the victims that are there, as we're working, am I 
making myself clear? OK.
    Senator Corzine. Mr. Chairman, can I ask one follow-up 
question?
    Senator Jeffords. Yes.
    Senator Corzine. EPA is responsible for checking air 
quality and was actively involved in, I presume, doing the 
checking for bioterrorism. Was that coordinated with the search 
and rescue teams? Do we feel like we're working off the same 
strategy and game plan as it relates to these kinds of issues? 
That's worrisome a little bit, that we're not sensing that in 
the gentlemen's response.
    Chief Plaugher. I can only address, obviously, the Pentagon 
incident. We did have EPA partners there from the start who 
worked diligently to monitor the air. The asbestos was of deep 
concern within the Pentagon, as well as you alluded to earlier, 
anything else that the plane might have had on it. So we had a 
Federal partnership with the EPA, who was right inside of the 
Pentagon, doing air sampling that was then rushed out to a 
laboratory for analysis.
    They were phenomenal. We got the reports back in a timely 
fashion, we knew exactly what we were dealing with air quality 
wise, and then what we found interesting was, even after it was 
declared that we did not have to have the level of protection 
that we started with earlier, some of the folks simply just 
didn't believe us. They kept the protection on anyway, they 
kept the respirators on, anyway. So it's a tough situation, 
because it's not only physical in monitoring those conditions, 
but it's also psychological, to make sure.
    We also were fortunate in the District of Columbia as we 
also have an NMRT, which is a National Medical Response Team 
component of the U.S. Public Health Service, of which I'm the 
executive director for the Washington metropolitan area. So we 
have some detection capability that other communities don't 
have, because it comes with a National Medical Response Team 
that is specifically designed for chemical and biological 
responses. So I don't think that you would find that in other 
places. There are only four of them in the United States. 
There's one for the Nation's Capitol, which is based in 
Arlington County at the fire department there. There's one in 
Winston-Salem, NC, there's one in Denver, and there's one in 
Los Angeles as part of the Los Angeles County metro area.
    There are other metropolitan medical teams based around the 
United States if a metropolitan area chooses to have one. 
That's also funded and supported by the Office of Emergency 
Preparedness of the U.S. Public Health Service. I know we used 
our NMRT from day one of the incident for decontamination and 
working through the evidence, and the evidence decontamination 
procedures for the FBI agents and law enforcement as well.
    So that also needs to be brought out in our further 
reported analysis of what we can do to enhance our capability.
    Senator Jeffords. Thank you all.
    Senator Smith.
    Senator Smith. I had to yield to my colleague there, he 
ranks on the Armed Services Committee.
    I didn't hear anybody mention this. How often do you train 
as local responders? How often do you train with the Federal 
agencies, if at all, on these kinds of disasters?
    Chief Hessinger. Senator Smith, each month, our team, as 
Ohio Task Force One, each one of our sub-teams, rescue, search 
and the other one, gets together on a monthly basis to train 
with their own cache and equipment. On top of that, we have a 
yearly mobilization drill where we basically mobilize to train 
on a specific incident. We mobilize the whole team as we would 
in FEMA. We also have one that we do as part of Wright-
Patterson Air Force Base, testing their knowledge out.
    On top of that, FEMA offers classes yearly to the different 
teams to go through specialist courses.
    Senator Smith. So you felt adequately trained, if that's 
possible, in a disaster like this?
    Chief Hessinger. Yes.
    Senator Smith. In the two visits that I made, the Pentagon 
and New York, right after, within days, I was just absolutely 
amazed at the amount of activity, and just wondered, especially 
you three, all of you, where you came into this situation, in 
your case just flying in from out of State, you're thrust into 
this activity and just, as one who was observing, not 
participating, you had construction workers, people trying to 
bring food and supplies, people removing rubble, firemen, 
policemen, FEMA, all this activity.
    When you're thrown into that situation, how do you know 
who's giving the orders? Everybody's running around with 
radios. Was it all organized enough that you knew exactly who 
you were supposed to take direction from and just make it all 
happen? Or are you going to keep it to yourself?
    [Laughter.]
    Captain Metzinger. For the most part, it may look chaotic, 
but it is quite organized. Each team that responds, we have two 
task force leaders. We're like a para-military organization, we 
have a structure that we have accountability to where we have 
leaders who make decisions.
    Senator Smith. Vertical integration was good?
    Captain Metzinger. Exactly, yes. So we have accountability 
in the same manner. So if something, a secondary device were to 
go off or if something would have collapsed, we would be on top 
of knowing exactly who was doing what at any given moment.
    Senator Smith. Just a couple of closing comments.
    Senator Jeffords. Go right ahead.
    Senator Smith. Chief, first of all, thank you for your kind 
remarks about the legislation I had proposed. I might just say, 
there's no pride of authorship here, whatever it takes to put 
the legislation together that helps you guys is what we'll do. 
I know there are some others that have some different ideas. We 
did have a hearing on it, I testified. So we expect that we'll 
be able to put something together with a combination of some of 
the proposals that were made.
    Also, captain, it was very compelling, your diary. It's so 
personal, and all of you, in terms of the emotion you have, I 
hope you're all dealing with it well. I know it's tough. I, on 
a much smaller scale, witnessed the murders at the CIA by a 
terrorist a few years ago, first-hand, right up front, up close 
and personal. I thought, ``I'm rough, tough, and I'll get over 
it.'' I'm not over it yet, to be honest with you.
    So I don't know how you deal with it. It is incredible, 
what you had to see. I cannot say enough about you, and all of 
your comrades.
    I'll just close, Chief, it wasn't a fireman or a policeman, 
but it was a Marine that, when I was at the Pentagon in all 
this activity that was there at that time, they still were 
looking for the possibility of live people. I spoke to a Marine 
who was standing there in uniform. He asked me if we were going 
to get after these perpetrators of this action, and I said, 
``The good news is, yes, the bad news is, you may have to go in 
on the ground to mop it up.'' And he said, ``Just call me 
first, sir.'' That's the kind of spirit that we have in this 
country, the firemen, the policemen, the search and rescue 
people, the military, we're all one.
    So thank you very much for all you did and all you're 
doing.
    Senator Jeffords. Thank you, Senator Smith, for those very 
excellent remarks.
    Let me ask another question along the lines we were talking 
about before, and that's the availability of equipment. We have 
seen now that it can happen anywhere. On the other hand, to 
have equipment available everywhere is probably not a logical 
answer. So should we think in terms of regional storehouses of 
equipment, or how do we grapple with that one, so that it can 
be in a timely manner?
    Chief Plaugher.
    Chief Plaugher. I heard the director's comments earlier 
today about the--28, I think, is what he said--FEMA urban 
search and rescue teams as an adequate number of teams. He 
doesn't feel like he needs any more. I think if we were to add 
a metropolitan component, a small, light component, that would 
serve the metropolitan areas where our greatest population is, 
that we could adequately then bolster that capability.
    I think a regional approach is sound. I also think a 
regional approach for our medical needs is also sound, where we 
could do some things to cache equipment and capability 
regionally as well as training. We for years have had dialog 
about the role of the National Guard in preparing for a 
response to terrorism. They chose to go down a different path 
than what several of us recommended, because we thought that 
they could have provided, could provide, valuable service, 
because they do have arenas and Guard armories and those sorts 
of things in most communities that could be a great asset to us 
for terrorism preparedness.
    So there is a need for, obviously, a great deal of dialog 
as we put together a structure that is different than what 
we've had to deal with before. The days of September 11 are 
going to change us forever. The threats are higher, the need 
for preparedness is higher, the need for response capability is 
much higher. I know there is a call-out nationally for an 
additional 75,000 career firefighters in this Nation. From my 
perspective, that's a bare minimum, to bolster our first 
response capability.
    That, coupled with a regional cache of equipment, I think 
we would be much better prepared.
    Senator Jeffords. Captain, did you have a comment? Do you 
agree with what he said?
    Captain Metzinger. I echo everything he did say, along with 
the Director of FEMA, that the 28 teams that you have in place 
now probably adequately cover this country from Washington to 
Florida. If you continue to support those, and I think it's a 
good suggestion to do smaller teams in metropolitan cities that 
perhaps don't have regional coverage now. Twenty-eight teams 
is, I guess, not that many if you think about the size of this 
country and some of the cities we have that may not have 
someone close by. You were fortunate in having two or three 
teams close by here at the Pentagon incident. New York City had 
Massachusetts and New Jersey close by.
    But the other teams are a distance out to get in there. 
You've got a lapse time of travel and getting the people 
together. So that may be a good idea, to have smaller, lighter 
teams in some of those cities that don't currently have them.
    Senator Jeffords. Chief Hessinger.
    Chief Hessinger. Mr. Chairman, I think again, the road 
they're on is correct. FEMA is working on and has actually 
incorporated what they call, the Chief was calling a light task 
force, actually, but a modular deployment, where they're taking 
small components of each team and deploying them to job 
specific events, i.e., they have a hurricane module right now, 
where you deploy a smaller number of your task force but they 
may deploy more of them to have a more congregated group of 
people and equipment for that specific need.
    In New York City's need, it would have been the need for 
more of the search cams and the search team components, and 
components for searching void spaces, deploying more teams, but 
smaller and with the equipment that they need. So I think the 
Chief is right on line with saying that the smaller, regional 
teams would be fine and that FEMA has 28 teams that cover the 
Nation well right now.
    Senator Jeffords. Mr. Kenney.
    Mr. Kenney. I don't have anything to add to that, because 
they've all said it very well.
    Senator Jeffords. Well, thank you. Thank you all. Obviously 
we have a lot of work to do. On the other hand, we do have 
restrictions on the amount of money we're going to have, too. 
We all like to see everybody have everything that they need, 
and that may not be possible. But I also will hold you in 
reserve to call upon you if we have additional questions.
    You've been extremely helpful and you've brought the 
reality of the situation to this committee in a way that we 
haven't had before. So I thank you very, very much for coming 
and look forward to working with you.
    [Whereupon, at 12:35 p.m., the hearing was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

          Statement of Hon. Christopher S. Bond, U.S. Senator 
                       from the State of Missouri

    Director Allbaugh, thank you for coming today. You, your agency, 
and all the amazing people FEMA works with have been true heroes 
helping the Nation respond to the tragic events of September 11.
    The September 11th attacks showed us what kind of evil exists in 
our world. September 11 also showed what kind of selfless bravery 
protects us and rescues us from that evil.
    Emergency response teams rushed to the sites as fast as the 
highjackers' planes. Some will be staying forever, because of their own 
loss of life. Many continue to place themselves in danger in the 
recovery effort.
    While the last FEMA teams have left the disaster sites, we know 
that FEMA continues to work around the clock to help put lives back 
together.
    We in Missouri bore witness to rescue efforts through our own 
recovery team. Sixty-two members from our Boone County urban search and 
rescue team spent 9 days toiling through the rubble. Unfortunately, 
their efforts were recovery, not rescue.
    For over a week, Boone County rescuers never gave up hope of 
finding a survivor. We now know that wasn't to be. But we can now form 
a new hope, that we can work tirelessly toward, that we can prevent 
this from ever happening to us again.
    With our emergency response actions in place, and relief efforts 
continuing, we can begin to look toward long term prevention and 
protection.
    I am working with the Environmental Protection Agency, both to 
ensure that there are no gaps in their protection responsibilities and 
to ensure that they have the resources they need to protect critical 
infrastructures such as our drinking water.
    One specific example of a continuing responsibility under FEMA is 
dam safety.
    Dams managed by the Corps of Engineers and Bureau of Reclamation 
receive Federal attention. However, there are over 100,000 dams under 
State regulation, and 10,000 dams posing a potentially high hazard to 
life if something were to happen.
    Missouri is fifth in the Nation with 437 high-hazard dams.
    FEMA has a role to play in getting information out to the operators 
of these dams, many private, and all wanting guidance and leadership 
from the Federal Government. They want to know how to assess the 
vulnerability of their dams and devise emergency response plans.
    EPA is sending water system protection checklists to the Nation's 
drinking water systems and I encourage you to do the same.
    Thank you for coming today and I look forward to working with you 
in any way you think we can better manage our Nation's disasters.
                               __________
       Statement of Joe M. Allbaugh, Director, Federal Emergency 
                           Management Agency

                              INTRODUCTION

    Good morning, Mr. Chairman and committee members. I am Joe 
Allbaugh, Director of the Federal Emergency Management Agency (FEMA). I 
thank you for this opportunity to discuss FEMA's operations in New York 
and at the Pentagon following the terrorist attacks on September 11, 
2001.
    I was attending the National Emergency Management Association 
Conference in Montana with State Emergency Management Directors from 
across the country when I first learned of the attacks on the World 
Trade Center in New York City and the Pentagon in Arlington, Virginia. 
I immediately returned to Washington, DC. to lead our response.
    As we now all sadly know, the twin towers at the World Trade Center 
complex collapsed after being targeted by two hijacked commercial 
airliners, and four other buildings partially collapsed. Several nearby 
buildings also suffered extensive collateral damage. After the World 
Trade Center attack, another hijacked plane was deliberately crashed 
into the Pentagon and a fourth hijacked plane crashed in Somerset 
County, Pennsylvania. Our Nation's response to these terrorist attacks 
was swift and is unprecedented in America's history.

                    RESPONSE AND RECOVERY ACTIVITIES

    Responding to the horrific events of September 11, the President 
immediately signed a major disaster declaration for 5 counties in New 
York. The disaster declaration was amended on September 27 and again on 
October 2, making all counties in the State of New York eligible for 
some form of Federal disaster assistance in the wake of the terrorist 
attack.
    The President also promptly declared a Federal emergency in 
Virginia under subsection 501(b) of the Stafford Act, and a short time 
later declared a major disaster in Virginia to trigger a broader range 
of Stafford Act response authorities. In addition, the President 
declared an emergency for all 21 counties in New Jersey. These 
declarations make available Federal programs that provide public 
assistance and assistance for families and individuals. Normally the 
Federal Government provides 75 percent of the disaster response costs 
with the remaining 25 percent the responsibility of non-Federal 
entities; however, in this disaster FEMA is reimbursing the States and 
affected local governments for 100 percent of the eligible costs for 
debris removal, emergency protective measures, and public 
infrastructure rebuilding costs in response to the terrorist attacks.
    Minutes after the first hijacked airplane hit the World Trade 
Center, I activated a full Emergency Support Team at FEMA's National 
Interagency Emergency Operations Center in Washington, DC. Federal 
officials immediately began arriving at the Center to coordinate the 
nationwide response and recovery effort. Some 1,800 Federal workers are 
deployed to New York to support the disaster response, about 800 from 
FEMA and almost 1,000 from other Federal departments and agencies.
    At the same time I activated FEMA's 10 Regional Operations Centers 
and a backup Emergency Support Team at our Mt. Weather facility in 
Berryville, Virginia. Both Emergency Support Teams operated around the 
clock, working 12-hour shifts. The FEMA Headquarters Emergency Support 
Team continues to operate so that we are prepared to immediately 
respond to any additional events, should this become necessary. 
Additional teams have been operating at FEMA Headquarters and in the 
field since September 11 supporting the disaster response, using the 
Federal Response Plan to coordinate all Federal activities and to 
strengthen State and local capabilities.
    Shortly after the incident, the lead for disaster response and 
recovery was transferred to Disaster Field Offices (DFOS) in New York 
City and in Arlington, Virginia. We deployed four Mobile Emergency 
Response Systems (MERS) to New York and one to Virginia to provide 
communications and other support to the DFOs and other facilities to 
enhance communications capabilities. One of these mobile units provided 
essential communications capabilities for the Federal Bureau of 
Investigation's (FBI) Office in New York so that they could immediately 
begin the investigative work essential for bringing the terrorists to 
justice and preventing similar acts in the future. At the same time, we 
dispatched liaisons to the FBI's Joint Operations Centers in New York 
City and Arlington and to the FBI's Strategic Information and 
Operations Center in Washington, DC. A FEMA National Emergency Response 
Team, our field response organization, was immediately alerted and 
remains on call if needed to respond to any other events.
    Our top priorities in helping New York and Virginia throughout this 
entire disaster response effort have been to:
    <bullet> Provide urban search and rescue support;
    <bullet> Assist in life saving operations;
    <bullet> Meet individual and public assistance needs;
    <bullet> Implement human services and victims assistance programs; 
and
    <bullet> Assist in debris removal.
    To support response activities in New York, mobilization centers 
were established at McGuire Air Force Base in New Jersey and Stewart 
Air National Guard Base in New York. Additional operating centers were 
established in the two States. The Anacostia Naval Air Station in 
Washington, DC, served as a mobilization center in support of the 
Pentagon operation. These centers supported the staging and movement of 
personnel and needed supplies and equipment into the affected areas.
    FEMA's Urban Search and Rescue (US&R) Task Forces have played a 
critical role in our response. In fact, the attacks thrust the Task 
Forces into the spotlight. The world has been focused on their 
important life-saving work and they have received a surge of gratitude 
and support from all over. The Task Forces are made up of between 62 
and 72 emergency responders who conduct search and rescue operations, 
provide emergency medical care for victims, handle search and rescue 
dogs, and evaluate and stabilize damaged structures. Twenty-six of our 
28 US&R Task Forces have been employed in responding to the Pentagon 
and New York disasters--5 at the Pentagon and 20 in New York, and one 
Task Force is assigned as a Rapid Intervention Team to respond to other 
events in New York City. At this time, 22 of the 28 Task Forces are 
available to respond to additional emergencies.
    The New York City Office of Emergency Management's US&R Task Force 
was among the first responders at the World Trade Center. The New York 
Force is a valued part of FEMA's 28 Task Forces that make up the 
National US&R Response System. Its Task Force leader, Chief Raymond 
Downey, was one of the first responders on the scene. Chief Downey was 
also the leader of the National US&R Task Force Leaders and was a board 
member of FEMA's US&R Advisory Committee. He and his Task Force members 
are among the missing and dead brothers of FEMA's US&R system.
    Our Federal partners have played extremely important roles in the 
response efforts. The Department of Health and Human Services and 
Public Health Service have played an important role in the health and 
medical response. 167 persons are assigned to Disaster Medical 
Assistance Teams and a Medical Support Team to support the response in 
New York and remain in the City. Similarly, 160 persons are assigned to 
Disaster Mortuary Teams and remain in the City. Thirty-three Centers 
for Disease Control epidemiologists are assigned to track illness 
trends. A Veterinary Medical Assistance Team is deployed to treat the 
rescue dogs; a burn team consisting of 9 nurses is operating at New 
York's Presbyterian Hospital; and a pharmaceutical stockpile were 
deployed to New York City, and all except the stockpile remain there.
    Debris management is, of course, another major area of concern with 
building collapses of this magnitude. Approximately 1.4 million-plus 
tons of debris are involved and some 300,000 tons of mixed debris have 
been removed to the sorting and disposal site at the Staten Island 
landfill. New York City has tremendous capability in this area and is 
managing the debris removal effort with technical support from the U.S. 
Army Corps of Engineers. Dredging of the Hudson River has been 
accomplished to facilitate removal of debris by barges.
    A great deal of our recovery focus is on helping individuals 
impacted by the disaster and we have set up a Disaster Assistance 
Service Center to help in this regard. FEMA Community Relations teams 
are going door-to-door in Lower Manhattan to distribute information and 
answer questions on the type of support FEMA is providing such as 
temporary housing assistance, and grants for emergency home repair, 
cleanup, unemployment assistance, and crisis counseling. The New York 
State Department of Labor estimates that 285,000 workers have been 
displaced or have become unemployed by the disaster.
    We are also closely coordinating with the Department of Justice's 
Office for Victims of Crime (OVC), the Department of Health and Human 
Service's Center for Mental Health Services, and the American Red Cross 
to provide a myriad of services. FEMA approved the State of New York 
Crisis Counseling Immediate Services Program and it is providing crisis 
counseling. The National Voluntary Organizations Active in Disasters is 
helping us with a long-term strategy for managing donations.
    There are several unique aspects of our responses to the terrorist 
attacks that relate to the provision of assistance to individuals. 
First of all, most disasters do not involve criminal acts, so FEMA does 
not routinely need to coordinate with OVC in the course of providing 
disaster assistance; however, in the current disaster, we are 
coordinating with OVC because they are providing assistance to victims 
of the terrorist attacks and their families and we want to make sure 
that there is no duplication of assistance. Second, the outpouring of 
donations that non-governmental organizations have received in the 
aftermath of the attacks is unprecedented. Finally, because these 
catastrophes involved airplane crashes, we are coordinating with the 
National Transportation Safety Board (NTSB) with respect to the 
provision of assistance from United and American Airlines to the 
families of the victims. In response to the unique aspects of this 
situation, we have aggressively coordinated with OVC, the NTSB, and the 
non-governmental recipients of donated funds to put in place as 
coordinated and efficient a response structure as possible. Since the 
Stafford Act prohibits FEMA from duplicating disaster assistance, we 
are being very careful to coordinate with all appropriate 
organizations.
    In another area, because the recovery of our infrastructure is so 
critical to restoring economic viability, we have established an 
Infrastructure Recovery Workgroup in New York to coordinate the 
stabilization and ultimate reconstruction of infrastructure and to 
incorporate reasonable enhancements and mitigation measures into the 
reconstruction process throughout the affected area.
    I would like to acknowledge the tremendous support we have received 
from some of our other partners I haven't mentioned thus far:
    <bullet> Transportation and movement support provided by the 
Department of Transportation;
    <bullet> Telecommunications assistance from the National 
Communications System;
    <bullet> Logistical and managerial support provided by incident 
management teams from the U.S. Firefighting Service;
    <bullet> Mass care, feeding, and mental health support from the 
American Red Cross and other volunteer organizations;
    <bullet> Resource support from the General Services Administration;
    <bullet> Environmental monitoring and sampling support from the 
Environmental Protection Agency;
    <bullet> Food stamp program support from the Department of 
Agriculture
    <bullet> Assistance in resolving power restoration problems from 
the Department of Energy; and
    <bullet> Invaluable support from the various branches of the 
Department of Defense.
    There has also been an incredible outpouring of offers of 
assistance from the international community. Citizens of more than 80 
nations were killed in the WTC attack, and 59 nations and the European 
Union have offered humanitarian assistance. Canada, Brazil, France, 
Mexico, Norway, and Sweden provided assistance, primarily in the form 
of small rescue teams and technical emergency management expertise.
    There is no doubt that the disaster response and recovery will be a 
long-term process, but the President has said that we will provide 
whatever assistance is needed to get the job done. I can assure you 
that FEMA will be there as long as needed. We will continue to work 
closely with New York City and the States of New York, Virginia, New 
Jersey, and Pennsylvania to complete this mission. I am grateful that 
Congress appropriated $40 billion to the President's Emergency Response 
Fund for overall emergency assistance to fashion a creative plan to 
recover from these events.
    I am especially moved and deeply humbled by the heroic and 
unselfish efforts of emergency responders from the local police and 
fire departments who placed themselves in harm's way to help others in 
their time of need. I am forever grateful to them for their ultimate 
sacrifice and bravery. Many of these policemen, firemen, and emergency 
medical technicians tragically lost their own lives while doing what 
they do best, putting everything aside to rush to the scene to save 
lives, rescue the trapped and injured, and be the first responders. Our 
hearts are hurting along with those individuals who have lost their 
loved ones. More than ever, we must reach out and do whatever we can to 
console them and help them through this difficult and sad period.
    The level of cooperation and professionalism exhibited by all of 
the Federal, State and local personnel and emergency responders has 
been outstanding, and the American people can be proud of the work they 
are doing to help the Nation recover. I am pleased by the dedication, 
abilities, and sheer will of the FEMA employees, the rescue workers, 
and officials from all levels of government, representatives of private 
businesses, volunteers, and others who are working together to help in 
the aftermath of this tragedy. The support we have received from the 
public has been tremendous. It won't be easy, but I know that we will 
prevail in the recovery effort because of the spirit and dedication of 
all of these people.

            THE ROLE OF THE OFFICE OF NATIONAL PREPAREDNESS

    I would also like to give you a brief status report on the Office 
of National Preparedness (ONP). The President asked me on May 8, 2001 
to establish the Office of National Preparedness, to lead the 
management of the consequences of the use of the weapon of mass 
destruction in the United States, if such use should occur despite the 
efforts of our Government to prevent it. A crucial part of any such 
consequence management effort, and a part for which FEMA is uniquely 
suited, is to work closely with State, tribal and local governments to 
ensure their planning training, and equipment needs are met.
    Under the Federal Response Plan, FEMA's role in response, recovery, 
and incident management is also crucial in responding to the 
consequences of terrorist incidents. The principal goal of ONP is to 
develop a coordinated, local, tribal, State and Federal effort to deal 
with the consequences of mass destruction in the U.S.
    On June 5th, I announced the restructuring of FEMA, which included 
creating ONP, to be headed by an Executive Director who reports 
directly to me. The ONP will have FEMA employees, detailees from the 
relevant Federal departments and agencies and, as appropriate, State, 
tribal and local representatives. On July 2, we activated ONP at FEMA 
headquarters.
    As you know, the President has announced the creation of an Office 
of Homeland Security with Gov. Tom Ridge of Pennsylvania serving as its 
director. This Office will coordinate the efforts of the Nation, 
seeking to reduce our vulnerability to terrorist attacks and mitigating 
their effects should they occur. I am pleased to report that the Office 
of National Preparedness is ready to assist Governor Ridge as he crafts 
and seeks to implement an overall strategy for the Nation.
    The Federal Emergency Management Agency, and its Office of National 
Preparedness, will play a key role in working with other Federal 
agencies, and State, tribal and local personnel, to deal with the 
consequences of uses of weapons of mass destruction.

                               CONCLUSION

    Mr. Chairman, you convened this hearing to discuss FEMA's 
operations in response to these two terrorist attacks. I have visited 
both sites numerous times and seen first-hand the shocking degree of 
destruction. I hope I have been successful in imparting some of what I 
have seen. FEMA is responsible for ensuring that the national emergency 
management system is adequate to respond to the consequences of 
disasters of all types, including acts of terrorism. The Federal family 
has focused its efforts on providing assistance to those affected by 
these terrible events and has done so swiftly and successfully, in 
part, because of the strong partnerships fostered through years of 
preparedness planning, and responding to other types of disasters.
    When I visit the disaster sites, I am amazed and gratified by the 
cooperation and the coordination of all of the workers, whether 
Federal, State, local or volunteers who, shoulder-to-shoulder, are 
working long and hard hours. Each time I visit, I also remember that I 
am entering a crime scene, as well as a memorial sight. Workers there 
are working diligently, but also with a great deal of respect. These 
workers, these heroes, continue to put themselves at risk trying to 
help their brothers and sisters. It is tough duty, and these are unique 
and special individuals who are called to this work. I am concerned 
about the victims, the brave firefighters, and emergency and police 
personnel who have worked so hard under extremely difficult conditions. 
We owe all of them an immense amount of gratitude and thanks.
    President Bush, Governor Pataki, and Mayor Guliani have provided 
New York and the Nation with inspiring leadership at a time when it was 
so desperately needed. The strength and spirit of the City and of New 
Yorkers have allowed them to bounce back in fine fashion. While 
recovery efforts continue at Ground Zero, life is returning to a 
semblance of normalcy. Students whose schools were near the World Trade 
Center have returned to class, but in different buildings blocks away. 
Major League baseball and football have returned to New York. The New 
York Stock Exchange opened less than a week after the terrorist attack. 
Though our hearts are broken, the process of healing has started. This 
Country is unique in its resilience and incredible spirit and we have 
witnessed this during the past few weeks.
    We appreciate your leadership during this difficult time. The 
cooperation and support provided by the Congress, as evidenced by the 
recently enacted supplemental appropriation and by your committee's 
willingness to review statutory authorities to assist in our efforts, 
is welcome and necessary. I thank the committee members for the 
opportunity to describe the activities of all the responders in New 
York City and at the Pentagon.
    Thank you, Mr. Chairman. I would be happy to answer any questions 
that you and the committee members have.
                                 ______
                                 
   Statement of Edward P. Plaugher, Chief, Arlington County, VA Fire 
                               Department

    I am Chief Edward Plaugher of the Arlington County Fire Department. 
I would like to begin by thanking the committee for having me today.
    I understand that the committee is deeply concerned, as all of us 
are, with the events of September the eleventh. The shocking and tragic 
events of that day have had a profound impact on the men and women of 
my fire department and on this Nation's fire service as a whole.
    I will speak today to some of the specifics of Arlington County's 
response to the attack on the Pentagon and to the role of the Federal 
Emergency Management Agency on that day and subsequent weeks. I will 
also make several recommendations on how we might improve our response 
capability.
    Our fire department's response to the plane crash began with a call 
for help from an Arlington County Fire Department engine company 
passing the Pentagon on its way to a more routine fire call.
    Our northern Virgina Automatic Aid program was immediately 
activated. Units from Ft. Myer, Alexandria, Fairfax and National 
Airport responded on the initial aid alarm. The second alarm included 
units from the District of Columbia Fire Department as well as from 
Montgomery County and Prince George's County, Maryland. Those first 
responding fire units fought an inferno triggered by 6,000 gallons of 
jet fuel in the world's largest office building.
    The Federal Emergency Management Agency's (FEMA) overall response 
to the attack on the Pentagon and its aftermath was superb. FEMA 
personnel arrived quickly and were extremely cooperative. They provided 
and continue to provide support to the Arlington County Fire Department 
and to our entire community. FEMA's field office director, Tom Davies, 
arrived with a positive, can-do attitude. He quickly explained that 
FEMA's core responsibility would be to work with the State of Virginia 
to ensure that all legally available aid was delivered as quickly and 
efficiently as possible. It came as a surprise to us that FEMA's 
operation was self-sufficient and imposed no support burden from 
Arlington County.
    FEMA's front line operational contribution was made by its Urban 
Search and Rescue (USAR) program. FEMA mobilized teams based in Fairfax 
County and Virginia Beach, Virginia; Montgomery County, Maryland and 
Memphis, Tennessee, to assist in the search for survivors. FEMA's USAR 
team based in New Mexico was later mobilized to provide relief to 
exhausted rescue personnel.
    Mr. Chairman and members of the committee, I must tell you that 
FEMA's USAR teams made an outstanding contribution to our effort. These 
teams are comprised of dedicated professionals whose hard work and 
unyielding efforts should not be overlooked.
    The capabilities of these teams are unique and generally are not 
available at the local level. As with FEMA's other operations, arriving 
teams are prepared for self-sufficient operations and thus did not 
burden Arlington County in any way with support requirements. That is 
in and of itself a sign of a well-designed response program.
    Two resources brought by FEMA's USAR teams stand out in my mind. 
First, search-dog capability, a need unique to search and rescue in 
structural collapse, allowed for a swift and thorough search for 
victims that would not have been possible otherwise. Second, the 
inclusion of structural engineers in USAR team deployment provided the 
expert supervision that we needed to conduct the safest possible 
operation. Where else, in a crisis, do you find people with expertise 
like that?
    All of us have room to improve how we do business. Though we in 
Arlington were impressed with FEMA's USAR capability, we were largely 
educated on FEMA's USAR capability at the Pentagon that day. It would 
be helpful if fire chiefs nationwide had a good understanding of USAR's 
role, capabilities and limits in advance of a catastrophe. My 
recommendation is that FEMA's USAR capability, including resources and 
operating procedures, be included in course curriculum at FEMA's 
National Emergency Training Center and particularly its National Fire 
Academy. A solid understanding of FEMA's USAR program, before a 
catastrophic incident occurs, would improve the overall operation of 
mitigating the event.
    I would also recommend that performance capability objectives be 
developed for the USAR program. By that I mean a standardized list of 
capabilities that a local incident commander can count on when a USAR 
team is deployed. I mentioned, for example, the exemplary canine search 
capability brought by USAR to the Pentagon. We must ensure that every 
USAR team enjoys the same capability. How many dogs should a team 
employ? For how long and over what area can a dog team search? If those 
kinds of capabilities can be standardized, we as fire chiefs can make 
safe assumptions with respect to our overall operational capabilities. 
It occurs to me that the development of these capability objectives 
should be developed by a panel of experts that includes both local 
emergency response officials and USAR experts.
    There is another issue with respect to USAR that I would like to 
address. It came to my attention in the aftermath of the attack on the 
Pentagon that there is at least one, and usually two, complete back-up 
teams that can be called upon to relieve deployed USAR team members. 
However, I also learned that there is an equipment shortage that allows 
for only one appropriately equipped team to be deployed at a given time 
from any one of USAR's 28 bases. If the airplane that crashed in 
Pennsylvania the morning of September 11 had instead reached 
Washington, DC, how would we have chosen where to send the existing 
cache of USAR equipment?
    We know now that the passengers on that airplane took action to 
relieve us having to make such a choice. I believe we owe it to their 
memory to ensure sufficient USAR equipment cache is provided so that 
those who are trained and organized to use it effectively are not left 
helpless in any future multi-site incident.
    We in the metropolitan Washington area are lucky to be home to both 
Montgomery County and Fairfax County's USAR teams. This is a unique 
situation.
    FEMA has commonly been faced with the challenge of transporting 
USAR teams over great distances to render aid. This takes precious 
time. We in the fire service have testified repeatedly before the 
Congress on the role of ``first response'' to any disaster, terrorist 
or otherwise. The ``first response'' is key because in the minutes and 
first 1 or 2 hours after an event has occurred is the timeframe in 
which the vast majority of survivors are rescued.
    It seems to me that we should look at creating a USAR ``lite'' 
capability that could be mobilized locally to work in the search for 
survivors until a fully staffed and equipped FEMA USAR team can be 
brought to the scene of an incident. This would go a long way to 
bridging the specialized search and rescue gap that exists when USAR 
teams must travel long distances.
    Incident command in circumstances like those we faced at the 
Pentagon is put to the test by fatigue. Our fire department's command 
staff was exhausted by the need for coverage for 24 hours a day, 7 days 
a week for several weeks. I would propose what I will call a ``Command 
Overhead Team'' program be developed by FEMA that would allow a small 
number of chief fire officers, with significant command experience, to 
be mobilized to support operations in a future incident. These teams 
could work in shifts to provide command and planning support to a fire 
department engaged in large scale operations in the wake of a terrorist 
attack or natural disaster. It might also serve in a situation similar 
to that we saw in New York, where the fire chief and a large number of 
his command staff were killed in the collapse of the World Trade 
Center.
    The level of cooperation and mutual assistance between FEMA and the 
Arlington County Fire Department was excellent. There are many moving 
parts to an effective response to a terrorist incident. Each of us must 
have good expectations of our own capabilities and a clear 
understanding of the roles and responsibilities of different agencies. 
In the final analysis, what transpired at the Pentagon, under the 
circumstances, was dealt with professionally and to the best of each of 
our abilities. We at the Arlington County Fire Department learned 
valuable lessons with regard to our own abilities and limits. It is my 
hope that we can all use those lessons to further a more effective 
preparedness effort.
    I would like to conclude my remarks, Mr. Chairman, in speaking to 
the overall Federal terrorism preparedness effort. There are said to be 
over 40 different offices and bureaus involved in terrorism 
preparedness across numerous Federal agencies. Though we have made 
great strides in our operational interaction with Federal agencies, 
there is an urgent need for better coordination of pre-incident support 
and training programs.
    I testified last spring before the House Transportation Committee 
on a piece of legislation designed to address this issue. A Senate 
companion bill, S. 1453, the Preparedness Against Terrorism Act, 2001, 
was recently introduced by Senator Bob Smith and referred to this 
committee. This bill codifies the Office for National Preparedness at 
FEMA that President Bush created earlier this year. It creates a 
``President's Council'' that will be charged with the development of a 
single national strategy on terrorism preparedness that will include 
measurable preparedness goals.
    We applaud President Bush's designation of Governor Tom Ridge of 
Pennsylvania as our new ``Homeland Security'' coordinator. However, it 
seems to us that S. 1453 could bring focus and legal authority to this 
new effort. It is my understanding that the Bush Administration had 
significant input to this bill and I urge you to make whatever 
modifications are necessary to address Governor Ridge's role and to act 
favorably on the bill in sending it to the full Senate for 
consideration as quickly as is possible. We owe it to our country to 
have the best coordinated, comprehensive terrorism preparedness 
strategy as is possible.
    Thank you again for having me today. I am happy to answer any 
questions.
                                 ______
                                 
    Statement of Jeffrey L. Metzinger, Fire Captain, Sacramento, CA 
 Metropolitan Fire District; Member, FEMA Urban Search and Rescue Team

    Mr. Chairman and members, my name is Captain Jeffrey Metzinger. I 
am employed with the Sacramento Metropolitan Fire District and a member 
of the Federal Emergency Management Agency's (FEMA) Urban Search and 
Rescue (US&R) Team. Specifically, I am a member of California's Task 
Force 7 (CA-TF7) team based in Sacramento, California.
    I was dispatched to New York City as a part of the search and 
rescue efforts in response to the terrorist attack on the World Trade 
Center on September 11, 2001. I sincerely appreciate the opportunity to 
share my hands-on experience as a heavy rigger/rescue specialist during 
11 arduous days beginning on September 11, 2001.
    The fire service and other emergency services are critical to the 
mission of protecting our communities. The events of September 11, 2001 
have demonstrated that first responders offer the best possible chance 
of saving lives during catastrophic events. First responders must be 
adequately equipped and trained to perform the jobs under the most 
adverse conditions. Domestic terrorism is a relatively new threat to 
citizens of the United States--and we will need Federal support to be 
adequately prepared. Terrorist attacks may occur in many different and 
unconventional ways: chemical, biological, hazardous materials, weapons 
of mass destruction, to cite a few.
    US&R teams are designed to provide supervision and control of 
essential functions at incidents where technical rescue expertise and 
equipment are required for safe and effective rescue operations. The 
Federal Government, through FEMA, has established twenty-eight (28) 
National US&R Task Forces throughout the Nation. US&R Task Forces are 
able to deploy within 6 hours of notification.
    Each US&R Task Force is comprised of 62 persons specifically 
trained and equipped for large complex urban search and rescue 
operations. The multi-disciplinary organization provides five 
functional elements which include command, search, rescue, medical and 
technical. The US&R Task Force is totally self-sufficient for the first 
72 hours and has a full equipment cache to support its operation. 
Transportation and logistical support is provided by either State or 
Federal resources.
    The US&R Task Force can provide round-the-clock operations (two 12-
hour shifts). The five functional elements in detail are:
    <bullet> Search--includes physical, canine and electronic (special 
cameras and listening equipment)
    <bullet> Rescue--conduct rescue operations in all types of 
structures
    <bullet> Medical--primarily responsible for the care and treatment 
of task force members and entrapped victims during extrications
    <bullet> Technical--provides personnel competent in structural 
integrity assessments, hazardous materials, heavy equipment and 
rigging, communications and logistics.
    <bullet> Command--the US&R Task Force is commanded by a Task Force 
Leader. The Task Force Leader is assisted by a Safety Officer and Plans 
Officer.
    Almost all members of an US&R Task Force are firefighter rescue 
specialists. Many members have multiple abilities that allow them to 
work in a variety of positions. My specific role is defined as ``heavy 
rigging specialist'' on CA-TF7. The heavy rigger has expertise in 
moving large objects (like steel and concrete). Typically, the heavy 
rigger coordinates rescue operations between team members and heavy 
equipment such as cranes. At the World Trade Center incident, heavy 
riggers were an integral part of the rescue operation. I kept a small 
notebook in my pocket and chronicled our efforts to assist the 
firefighters, police officers, and citizens of New York City. The 
following are excerpts from my personal journal on the devastating 
events beginning on September 11, 2001.

    Tuesday, September 11
    (6:15 a.m.--Pacific Standard Time)

    I was on my way to work like so many others when I heard on the 
news on the radio that an airplane had crashed into the World Trade 
Center. I raced into the office where I currently work as a Training 
Officer for the Sacramento Metropolitan Fire District. Within minutes, 
I heard that a plane had crashed into the other Tower as well--and that 
news changed everything. It was obvious that these actions were no 
accident.

    (7:30 a.m.)

    Captain Steve Cantelme (a co-worker) and myself are both members of 
FEMA's California Task Force 7. We realized that our team would likely 
be deployed to New York City. Our Team's rescue cache is located across 
town and other team members were already in route to prepare for a 
deployment. The forklift used to load our large rescue pallets was not 
with the cache. It was being used in a Rescue Systems class several 
miles from where it needed to be. We quickly hired a transport truck 
and escorted our forklift across town in rush-hour traffic. (A second 
forklift would have been highly useful.)

    (9:00 a.m.)

    CA-TF7 arrived at Fire Station 9 where our rescue cache is stored. 
There is a great deal of activity as our team gets official word that 
we are responding to New York City. There is a lot of tension in the 
air and everyone is hurrying to move 62 people and tons of rescue 
equipment onto 3 truck and trailers and 3 buses.

    (2:30 p.m.)

    CA-TF7 leaves Station 9 for Travis Air Force Base. There are lots 
of other CA-TF7 members who helped get us out of town. They all wanted 
to go with us--but only 62 people are deployed. Interstate 80 is closed 
by the Highway Patrol as we get a code 3 (red lights and sirens) escort 
to Travis. I finally have a minute to reflect on what is going on. 
Tragedy awaits us and I already miss my wife and daughter. We get word 
that both the World Trade Center and the Pentagon have been attacked by 
hijacked civilian airplanes.

    (4:20 p.m.)

    We're waiting at Travis Air Force Base to load on the plane. 
Sitting in a chair, I realize how hungry I am. I haven't eaten since 
last night.

    (4:35 p.m.)

    We get a briefing from the Task Force Leader. We will be flying 
into a crime scene. Everyone is advised to document their activities 
when we finally get to work. Our Task Force is divided into two teams--
Gray and Blue. I'm assigned to the Blue team as ``heavy rigger''. 
Captain Jay Coon will be my counterpart on the Gray team. I will report 
to Marc Bentevoja who is the Blue team Rescue Manager.

    (5:30 p.m.)

    We are loaded onto a USAF C-5 Galaxy and our destination is McGuire 
AFB in New Jersey. Security has been intense all day.

    (5:50 p.m.)

    We are served a delicious box lunch on the plane. I ate everything 
except the box.

    (6:27 p.m.)

    We are ``wheels-up'' from Travis ARB. I'm too anxious to sleep. An 
Air Force crewmember informs us that we have a 4 fighter jet escort to 
the East Coast. It sinks in how treacherous this assignment really is.

    Wednesday, September 12
    (2:13 a.m. East Coast Time)

    We land at McGuire AFB after a 4\1/2\-hour flight. The plane is 
quiet. You can feel the anxiety in the air.

    (4:30 a.m.)

    We are provided a bed for about 3 hours of sleep.

    (7:30 a.m.)

    Breakfast is served in the dining hall.

    (9:00 a.m.)

    There is a morning briefing from the Task Force Leaders. The word 
is that we will be waiting a while. Everyone is reminded that security 
is at its highest level. We are not to wander or go anywhere alone.

    (2:00 p.m.)

    Buses arrive for our transport to New York City. Our bus is 
searched by military dogs after we board. Everyone's identification is 
checked again.

    (2:55 p.m.)

    We are finally leaving for New York City. Everyone is anxious to 
get to work.

    (5:00 p.m.)

    As we approach the Hudson River from New Jersey, you can see a 
large column of smoke coming up from the site where the World Trade 
Center used to stand. This is my first trip to New York City, and I 
feel sad by what I see.

    (6:00 p.m.)

    We have arrived in New York City. Traffic is incredible, even with 
a full police escort. The corners are filled with people. We are just a 
few blocks away from the large smoke column I had seen earlier.

    (7:00 p.m.)

    We arrive at the Javits Convention Center where we will set up our 
base of operations. There are several other teams coming in as well. 
They include teams from: Los Angeles City, Missouri, Indianapolis, 
Riverside (Ca.), and Pennsylvania. It takes most of the evening to get 
our cache unloaded and our area organized for an extended stay.

    Thursday, September 13
    (12:30 a.m.)

    There are two physicians that are a part of our team. One of their 
jobs is to keep other team members healthy. Averaging about 3 hours of 
sleep per day, I took a sleeping pill to get some rest.

    (6:00 a.m.)

    Up for breakfast. Looks like we're gearing up to work at the 
``site'' this morning.

    (12:00 Noon)

    Gray team will be working the day shift. They are deployed out to 
the site. Members of the Blue team will relieve the Gray team this 
evening.

    (7:15 p.m.)

    Blue team is loaded onto the bus and we head into our ``sector'' to 
go to work. We meet up with the Gray team and exchange information. We 
take a brief tour of the collapse zone along Church Street. The scene 
is surreal. There are people everywhere. Smoke continues to drift from 
massive piles of rubble. The expanse of this disaster is difficult to 
comprehend. Our forward base of operations is located in a garage on 
the bottom floor of an office building at West Broadway and Park. 
Several searches are conducted by our search dogs in the vicinity of 
Tower 7. The technical search camera is also used. We had no luck in 
finding any victims.

    Friday, September 14
    (12:00 Midnight)

    Our team is working the area for an assignment. The dogs have 
alerted--but at a very dangerous location. It is too unstable to enter. 
There is heavy thunder, lightning, wind, and heavy rains tonight.

    (8:30 a.m.)

    We're back at the Javits Center for breakfast and then 3\1/2\ hours 
of sleep.

    (4:00 p.m.)

    Briefing form the Task Force Leader. We are told that President 
Bush will be visiting. Secret Service is everywhere and dogs are 
searching through our stuff.

    (5:30 p.m.)

    Met and shook hands with President Bush and Senator Hillary Rodham 
Clinton. The Governor and Mayor were also in attendance. This was quite 
an experience! Their visit was very much appreciated.

    (8:15 p.m.)

    Briefing for night operations. We will be moving to the Church and 
Dey Street Command Post where we will be working with the Massachusetts 
Task Force.

    (8:40 p.m.)

    On the bus headed to work. Hundreds of people line the streets and 
cheer us as we go by. Traffic is so congested, we get off bus and walk 
the last few blocks to Church and Dey.

    (11:00 p.m.)

    Tonight, I'm assigned to our technical search team. Our rescue team 
is setting up a rope system to lower one of the rescue team members 
into the debris crater near the Church St. command post. The objective 
is to place a cellular phone antennae to assist with victim locations.

    Saturday, September 15
    (3:35 a.m.)

    We are released for the sector for the evening. Everyone on the 
team is anxious to do something to help.

    (3:30 p.m.)

    We had a visit from the New York Yankees. They thanked us and we 
thanked them. Seems that everyone wants to help.

    (7:30 p.m.)

    Headed back to work. People are still lining the streets--cheering, 
waving flags, holding signs, lighting candles.

    (8:15 p.m.)

    The search and rescue teams are out to complete searches of all the 
building in our sector. There are several 30-plus story buildings 
around the World Trade Center plaza. The searches are conducted from 
basement to roof. Every door is opened, and every space is checked. 
Climbing the stairwells, we take on one building at a time. Many walls 
facing the plaza have sustained serious damage. We do not find any 
victims. Every floor of every building we search is marked as being 
completed. This assignment took a toll on the legs.

    (9:00 a.m.)

    Relieved by the day crew. We return to base for some rest.

    (6:45 p.m.)

    We get a briefing for the next work period. Three top FDNY Chiefs 
are laid to rest today. We are to be moving into more dangerous ground 
today between buildings 5 and 6 (possibly underground). Drawings show 
up to 6 levels below street grade. Chaplain Ward Cockerton says a 
prayer for the victims of this disaster and for the safety of our team.

    (8:45 p.m.)

    Reported to the Church and Dey Command Post and began work as a 
heavy rigger. Steve of the Massachusetts TF1 and I worked with 4 New 
York iron-workers. Using a 90-ton crane, we worked all night non-stop 
moving steel.

    Sunday, September 16
    (8:00 p.m.)

    Back to work with the crane and a new group of iron workers. Made a 
connection with Mike, Rich, and Kevin. They are good people. We cut and 
moved tons of steel again tonight.

    Monday, September 17
    (Early morning)

    I found a child's doll in the rubble. I miss my family a bunch. I 
heard our rescue team found a victim this morning--a police officer. 
Hopes for a live rescue seem to be dimming.

    (9:00 a.m.)

    Back to Javits Center for some rest.

    (8:00 p.m.)

    We're on the bus back to the work site. I'm tired already. Headed 
back to the crane. We work all night moving steel. I have noticed after 
several nights that there is very little debris that is recognizable. 
There are no desks, chairs, carpet, sheetrock, or anything else you 
would associate with an office building--just the steel structure. 
There are still no victims discovered in the immediate area.

    Tuesday, September 18
    (9:30 a.m.)

    We're back to the Javits center for a sleeping pill. It worked.

    (8:00 p.m.)

    On the pile again moving steel and searching for victims. Today, 
the smell of death is more evident. I found a business card of man 
whose office was on the 83rd floor of one of the towers. I wondered 
what his fate was. I said a prayer for him, hoping he's alive and well.

    Wednesday, September 19

    The crane operation is halted at midnight in order to make 
preparations for a larger crane to move in. It looks like a 300-ton 
crane will be ready to go within 24 hours. The reach and capability 
will improve our efforts. While the crane is shut down, I joined forces 
with some FDNY people. There were two battalion chiefs with their 
sleeves rolled up working alongside us. We were moving debris by hand. 
It's a very solemn night.

    (6:00 a.m.)

    Waiting for relief team . . . tired, tired, tired.

    Thursday, September 20
    (5:45 a.m.)

    We're heading home today. It takes all day to pack our equipment 
and load onto transport trucks.

    (3:45 p.m.)

    We're sitting on the bus waiting to return to McGuire AFB in New 
Jersey. It's been a long 10 days. I'm exhausted, and the team physician 
has diagnosed me with bronchitis.
    The dust we have been breathing all week finally caught up with me. 
Many others on the team have the same complaints of headache, sore 
throat, sinus congestion, and sometimes fever. Everybody is troubled 
that we didn't find any live victims.

    (8:45 p.m.)

    We have arrived at McGuire AFB. Security is still very high. 
Everyone is carrying automatic weapons.

    (11:00 p.m.)

    Getting sicker by the minute. The team physician has me on 
antibiotics, Sudafed, sleeping pill and albuterol inhaler.

    Friday, September 21
    (1:00 p.m.)

    On board a 757, North American Airlines with the Task Force teams 
from Riverside and Los Angeles, California.

    (3:45 PST)

    We drop off the Riverside and Los Angeles Team in southern 
California.

    (7:20 p.m.)

    We land at Travis AFB in northern California. We have a full police 
and fire escort for the drive back to Sacramento. Every freeway 
overpass along the way is full of fire engines, police cars, and 
citizens cheering us home. It was a very warm reception.

    (9:15 p.m.)

    We arrive in Sacramento to a huge gathering of family, friends, co-
workers, dignitaries, and the media. For the people of Sacramento, we 
were their connection to the tragedy in New York City. It felt very 
good to be home, but I felt like a part of me was still in New York 
City.
    When I go to sleep, I still dream about being there.
    Additional support of the Federal Government is necessary to save 
lives during future catastrophic events. Our citizens and first 
responder's lives will depend upon our efforts to be proactive and 
prepare. The following list identifies some of the areas that need to 
be addressed:
    <bullet> Expand local resources (fire, emergency medical services, 
law enforcement);
    <bullet> Increase support for the Urban Search and Rescue Program;
    <bullet> Improve radio communications among Task Forces and local 
resources;
    <bullet> Provide additional chemical/biological protective 
equipment and related training for fire and EMS first responders;
    <bullet> Support and integrate the actions of local fire and EMS 
resources and FEMA teams in response to domestic terrorism and other 
disasters.
    Firefighters, law enforcement, and emergency medical services will 
continue to be the first responders at future incidents. The toll on 
our emergency personnel is tremendous, both physically and mentally. We 
owe it to ourselves to be prepared for the mission to protect our 
communities.
    I appreciate the opportunity to provide comment and share my 
experience as a firefighter search and rescue specialist during this 
infamous event. I am available to answer any questions that members of 
this committee may have.
                                 ______
                                 
  Statement of Robert Hessinger, Logistics Chief, Ohio Task Force One

    Chairman, committee Senators, distinguished guests, my name is 
Robert Hessinger, I am the Logistics Chief for Ohio Task Force One and 
was deployed with the Task Force to New York City September 11, 2001. I 
would like to start by saying thank you on behalf of Ohio Task Force 
One for allowing us to share our experiences with you. Ohio Task Force 
One is the 27th of 28 FEMA US&R teams, established in spring of 1997 
and based at Wright-Patterson Air Force Base (WPAFB) in Dayton, Ohio. 
Since the establishment of our task force as a FEMA US&R team, our 
members have been active in the FEMA system sharing our unique 
relationship and knowledge of the Air Force with several teams across 
the Nation, including working closely with the West Coast teams to 
affirm their relationships with Air Force bases from which they 
mobilize. Ohio Task Force One has continued to work hard at our 
relationship with FEMA and the 27 other teams by offering our services 
with instructors for FEMA courses, members on the national working 
groups and the national instructors list, and, along with Wright-
Patterson Air Force Base, hosting Logistics Specialist Courses.
    Ohio Task Force One's hard work was tested and proven successful on 
September 11, 2001 when Ohio was one of the first three task force 
groups dispatched to the New York City bombings. Ohio Task Force One 
was officially activated for our first national deployment at 1100 
hours on September 11, 2001 to mobilize our team to New York City 
traveling by ground mobilization. The task force deployment was 
multifaceted due to our member's activity within the FEMA system. 
Initially, Task Force Leader (TFL)-1 Capt. James Gruenberg was 
activated as a member of the Red Incident Support Team (IST) where he 
holds the position of US&R Specialist as his primary role. Due to TFL-1 
Gruenberg's past service with the New York City Fire Department, he was 
given the role of Daytime Operations and Liaison to the Fire Department 
New York (FDNY) which he held and operated with distinction. As a past 
member of FDNY, TFL-1 Gruenberg had a unique perspective and 
understanding of the scope of this incident on members and the 
leadership of FDNY. A second Task Force Leader, TFL-3 Robert McKee, was 
also activated as part of the Blue IST where TFL-3 McKee served as a 
mobilization specialist based out of McGuire Air Force Based and was 
the primary liaison to the Wing Commander Staff coordinating all 
incoming teams. TFL-3 McKee noted that McGuire AFB Command Staff and 
crews made a commendable difference in the mobilization and movement of 
the Federal teams and staff. To complicate this matter, TFL-3 McKee and 
myself, as Logistics Chief, were attending a meeting for the California 
Governors Office of Emergency Services (CALOES) Logistics Working Group 
in San Diego, California. Although this pressured Ohio Task Force One 
with three of the leadership staff unavailable for initial task force 
movement, it proved to strengthen our task force as a team. Since TFL-3 
McKee and myself have a strong understanding and relationship with the 
United States Air Force, we drove from San Diego to March Air Force 
Base immediately after Ohio's deployment to aid in the coordination of 
Los Angeles City CA-TF-1, Riverside CA-TF-6 and California IST members 
air mobility to McGuire AFB. TFL-3 McKee and myself would personally 
like to thank the FEMA staff, particularly Dave Webb, for their 
professionalism and trust during configuration of an air movement 
during the unique restrictions placed on aircraft mobility and traffic. 
We would also like to thank Wright-Patterson Air Force Base for the 
groundwork their commanders laid for a strong national relationship. 
Ohio Task Force One is proud to have aided in such a strong 
relationship. With two of the three Task Force Leaders activated on the 
IST, Ohio Task Force One showed the depth in our organization by moving 
up the Rescue Team Manager, Steve Shupert, to the Position of Task 
Force Leader-2 to deploy with our remaining Task Force Leader, Mike 
Muhl. During the onset of activation at Wright-Patterson Air Force 
Base, base command staff did a commendable job ensuring over 90 members 
of Ohio Task Force One gained access to a military post under Force 
Protection Condition Delta.
    Operationally, Ohio Task Force One arrived at the Jacob Javits 
Center in Manhattan, New York at approximately 0600 a.m. on September 
12, 2001 making it the third FEMA US&R team behind Massachusetts and 
Pennsylvania. The primary mission of the task force, upon arrival, was 
to establish the rear Base of Operation referred to as a BoO. The task 
force also created two operational teams by splitting the members into 
daytime operations and nighttime operations, running a seven to seven 
12-hour operational period. At approximately noon on the 12th, Task 
Force Leader Muhl became the day operation leader and proceeded to 
Ground Zero. The first operation was to set up the forward BoO, which 
was inside a Chase Manhattan Bank at Liberty and Southend Street in the 
Liberty Street Division of the Incident Command System. After the 
forward BoO was set a few missions consisting of mainly reconnaissance 
and K-9 confirmation of victims.
    The first full operational period for the task force came on day 
shift Thursday September 13th. None of the team members were ready for 
the magnitude of the destruction and size of the collapse. Three 
thousand workers looked insignificant to the mass of rubble. Ohio Task 
Force One was given many missions dealing with technical search of void 
areas with search cameras and the team's K-9 handlers could not keep up 
with the multitude of requests from command and workers alike. TFL Muhl 
worked closely with the FDNY sector commander to coordinate sub-level 
void searchers, technical rigging decisions and structural evaluations 
by the team's structural specialists. As the operational periods 
continued, Ohio Task Force One was tasked with many different missions, 
unfortunately they all met with the same conclusion.
    One of the missions included rigging a rope lowering system to 
penetrate a small opening in a collapsed stairwell to search a 
mechanical room four levels below grade. At this point, optimism within 
the team ran high due to the size and structural stability of the void 
spaces. The recon team also rigged another rope system to lower 
searchers into a void where previously FDNY Ladder 6 personnel had 
survived the collapse. Further voids around the area were found to have 
inadequate anchor points to appropriately rig a lowering system. This 
was the first letdown the team had suffered and found it difficult to 
convey this to fellow FDNY firefighters. Continued missions to search 
void spaces turned up parking levels with thigh deep, contaminated 
waters and more void spaces without live finds. A mission to secure and 
remove impaled steel of the World Financial Building was changed by the 
task force structural specialist to securing the piece of steel 
directly to the main structure due to increased risk to rescuers. This 
decision proved to be the correct one and the piece remained stable. 
Day operations were also tasked with reconnaissance of the surrounding 
buildings. Teams climbed and searched multiple buildings, breaching 
locked doors and systematically marking cleared areas for a thorough 
search. A couple of searches turned up citizens either not able to 
traverse the lengthy trip down the stairs or unwilling to leave their 
personal possessions after being so violently violated. Local Emergency 
Medical Services or National Guard was called and successful removal of 
the citizens was accomplished with care and compassion. Speaking for 
the task force, I can truly say our primary mission was accomplished. 
As a FEMA US&R Task Force we are given the task to support the local 
jurisdiction in mitigation of an overwhelming situation. The FDNY was 
placed in such a situation. The FEMA US&R concept was alien to the 
workers we encountered due to the loss of the majority of the special 
rescue personnel within their department. As fellow firefighters we 
offered special equipment, a fresh and educated set of hands, and 
confidence the rescue was being accomplished to the best of our 
abilities. I felt one of the most important things we offered the FDNY 
firefighters on the rubble pile was our hand in battle, letting them 
hoist us up to their position giving them a feeling of participation. 
Most of all, letting them know we were there for them whenever and 
wherever they needed us. A few members of Ohio Task Force One had 
friends on FDNY, due to training courses offered by FEMA that died in 
the line of duty September 11, so the operational teams would stop at 
local firehouses and pay their tribute at the end of their operational 
periods. This helped members cope with the large loss of life and 
further bonded the respect for our brothers and sisters. On the last 
operational period, Ohio Task Force One stopped by Rescue 5 FDNY and 
donated equipment that would aid in the rebuilding of this 
distinguished company. We hope this will somehow leave a lasting 
impression of the FEMA system and the first class teams that adorn it.
    Ohio Task Force One was given demobilization orders on Tuesday, 
September 18 with a departure date of Thursday, September 20. The mixed 
feelings of members who felt we had not finished the job and others 
that felt it was time to see family and friends seemed to echo the 
operational feelings of we were not doing enough and exhaustion setting 
in. The citizens and leaders in Ohio made the return trip a memorable 
one with police escorts, fire department apparatus lining the highways, 
citizens with banners on overpasses and our families at Wright-
Patterson Air Force Base.
    The magnitude of this incident was one that is unimaginable, no 
matter how much you have trained and felt you were prepared. The 
support Ohio Task Force One was given by the Incident Support Teams of 
FEMA and the expertise and guidance of those placed in charge of this 
tragedy were professional no matter what the situation, but given this 
event we commend all the men and woman in those positions for an 
exemplary job. Ohio Task Force One will take the valuable experience we 
gained from this tragedy and prepare to respond to future deployments 
and continue to provide this country with the best-trained personnel in 
the world. Ohio Task Force One would like to thank FEMA, the State of 
Ohio and our families for all the support given to us over the years. 
We would also like to thank the Environment and Public Works Committee 
for your time today and continued support protecting our Nation. May 
God bless all of us.

</pre></body></html>
